r-

. '•?

*

No. 20-.
In The

Supreme Court of tf|c Ifnitcb States
October Term, 2020
Raheem Jefferson Brennerman,
Petitioner,
v.
United States of America,
Respondent,

On Petition for a Writ of Certiorari
To the United States Court of Appeals
for the Second Circuit
APPENDIX - PETITION FOR A WRIT OF CERTIORARI

Raheem J. Brennerman
FCI Allenwood Low
P. O. Box 1000
White Deer, Pa. 17887-1000
Pro Se Petitioner

S
L

APPENDIX A
Order of the United States Court of
Appeals for the Second Circuit in
United States v. The Blacksands Pacific Group, Inc.,
et. al (Brennerman) No. 18 1033 Cr. EFC No. 286
(Affirming Conviction and Sentence)

APPENDIX A

001a

Case 18-1033, Document 286-1, 06/09/2020, 2857279, Pagel of 5

18-1033(L)
United States v. Raheem Brennerman

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT.
CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS
PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A
SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST
CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH
THE NOTATION “SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER
MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York on the
9th day of June, two thousand twenty.
Present:

ROSEMARY S. POOLER,
REENA RAGGI,
WILLIAM J. NARDINI,
Circuit Judges.

UNITED STATES OF AMERICA,
Appellee,
v.

18-1033,18-1618

RAHEEM BRENNERMAN,
Defendant-Appellant,
THE BLACKSANDS PACIFIC GROUP, INC.,
Defendant.

Appearing for Appellant:

John C. Meringolo, Meringolo & Associates, P.C., Brooklyn, N.Y.

Appearing for Appellee:

Danielle Renee Sassoon, Assistant United States Attorney
(Nicholas Tyler Roos, Robert B. Sobelman, Anna M. Skotko,

APPENDIX A

002a

Case 18-1033, Document 286-1, 06/09/2020, 2857279, Page2 of 5

Assistant United States Attorneys, on the brief), for Geoffrey S.
Berman, United States Attorney for the Southern District of New
York, New York, N.Y.
Appeal from the United States District Court for the Southern District of New York (Kaplan, J.).
ON CONSIDERATION WHEREOF, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the judgment be and it hereby is AFFIRMED.
Defendant-Appellant Raheem Brennerman appeals from the May 21, 2018, judgment of
conviction entered in the United States District Court for the Southern District of New York
(Kaplan, J.), sentencing him principally to 24 months’ imprisonment followed by 3 years’
supervised release. Following a juiy trial, Brennerman was convicted of two counts of criminal
contempt, in violation of 18 U.S.C. § 401(3). We assume the parties’ familiarity with the
underlying facts, procedural history, and specification of issues for review.
On appeal, Brennerman argues that the district court committed reversible error by: (1)
denying his motion to compel compliance with a subpoena that sought the production of certain
documents from the Industrial and Commercial Bank of China’s London branch (“ICBC”); (2)
making improper evidentiary rulings; (3) denying his second Rule 33 motion as untimely; and
(4) imposing a procedurally and substantively unreasonable sentence. He further argues that he
received constitutionally deficient assistance of counsel.
I.

ICBC Subpoena

Rule 17 of the Federal Rules of Criminal Procedure governs the issuance of trial
subpoenas in criminal cases. A decision to deny, quash, or modify a subpoena “must be left to
the trial judge’s sound discretion” and “is not to be disturbed on appeal unless it can be shown
that [the district court] acted arbitrarily and abused its discretion or that its finding was without
support in the record.” In re Irving, 600 F.2d 1027,1034 (2d Cir. 1979).
We find that the district court appropriately concluded that Brennerman failed to effect
service of the subpoena on ICBC as required by Rule 17(d). Significantly, Rule 17 provides that
“[t]he server must deliver a copy of the subpoena to the witness.” Fed. R. Crim. P. 17(d). In an
attempt to serve the subpoena, Brennerman sent a copy to ICBC’s New York-based attorney in
the underlying civil case, not to ICBC’s London branch. This plainly did not comply with the
rule.
To the extent Brennerman argues that die government was required to retrieve the
documents for him, that argument is also meritless. ICBC is not an agent of the government, and
therefore the prosecution was under no obligation to make efforts to obtain information beyond
what it previously collected and turned over to Brennerman. Cf United States v. Yousef, 327
F.3d 56,112 (2d Cir. 2003).

APPENDIX A

003a

Case 18-1033, Document 286-1, 06/09/2020, 2857279, Page3 of 5

n.

Evidentiary Rulings

Brennerman next challenges the exclusion of certain evidence concerning settlement
discussions with opposing counsel in the civil case, as well as documents Brennerman
purportedly provided to ICBC in 2013. He also argues that the district court improperly admitted
the redacted civil contempt orders.
“We review a district court’s evidentiaiy rulings under a deferential abuse of discretion
standard, and we will disturb an evidentiary ruling only where the decision to admit or exclude
evidence was manifestly erroneous.” United States v. McGinn, 787 F.3d 116, 127 (2d Cir. 2015)
(internal quotation marks and citation omitted). “Under Rule 403, so long as the district court has
conscientiously balanced the proffered evidence’s probative value with the risk for prejudice, its
conclusion will be disturbed only if it is arbitrary or irrational.” United States v. Awadallah, 436
F.3d 125,131 (2d Cir. 2006).
As to the settlement discussions, Brennerman argues that the district court should have
allowed him to introduce certain evidence of those discussions because it showed he was acting
in good faith to comply with the court’s orders. But we disagree with Brennerman’s
characterization of the record. The record shows that the district court did allow Brennerman to
introduce evidence concerning settlement discussions on the condition that he establish his
knowledge of the substance of the exhibits and their relationship to the relevant time period. At
the end of trial, the district court admitted those exhibits for which the connection was made.
Also, through cross-examination, Brennerman was able to introduce evidence about the parties’
settlement discussions. In summation, defense counsel relied on that evidence to argue that
Brennerman did not willfully disregard the orders. In our view, the district court did not abuse its
discretion in admitting some but not all of this evidence, and Brennerman has failed to point to
any specific evidence that would have helped his case had it been admitted.
Brennerman’s challenge to the district court’s exclusion of documents he turned over to
ICBC in 2013 also fails. Such evidence, Brennerman argues, would have cast doubt on his
willfulness on his behalf in disobeying orders, because it would have shown that he did not
realize he had to re-produce documents that ICBC already possessed. But, as the district court
aptly noted, the documents were evidently provided to ICBC long before the civil case began,
and were only minimally response to ICBC’s discovery requests, so their production was not
probative at all of Brennerman’s compliance with those discovery requests and subsequent court
orders.
Finally, with respect to the admission of the redacted contempt orders, we find no error.
As the district court correctly determined, the civil contempt orders were relevant to
Brennerman’s willfulness. To minimize any potential prejudicial effect, the district court
redacted portions of the orders and instructed the jury on the limited purposes for which it could
consider the civil contempt orders in the context of a trial about criminal contempt. Thus, the
district court appropriately accounted for the probative value of the evidence as well as its
potentially prejudicial effect, and we cannot conclude that its decision was arbitrary, irrational, or
manifestly erroneous.

APPENDIX A

004a

,r

Case 18-1033, Document 286-1, 06/09/2020, 2857279, Page4 of 5

m.

Rule 33 Motion

Brennerman first filed a Rule 33 motion on February 14,2018, which was denied without
prejudice in the event that he were to terminate counsel and proceed pro se. Brennerman elected
to proceed without counsel on February 26, and on February 28,2018 he filed another Rule 33
motion. He then filed what he styles as an amended Rule 33 motion on March 26,2018, also pro
se. On appeal, Brennerman challenges the district court’s denial of his March 26 motion as
untimely.
A Rule 33 motion for a new trial on grounds other than newly discovered evidence must
be filed within fourteen days after the verdict. Fed. R. Crim. P. 33(b)(2). Pursuant to Rule
45(b)(1)(B), however, this time limit may be extended if the moving party failed to act because
of “excusable neglect.” Fed. R. Crim. P. 45(b)(1)(B). When, as here, a defendant does not raise
an argument below, we review for plain error. United States v. Alcantara, 396 F.3d 189,207 (2d
Cir. 2005.)
Brennerman concedes that his March 26 motion was untimely, but he argues excusable
neglect because his counsel withdrew. We are not convinced that Brennerman’s justification is
sufficient for a finding of excusable neglect. Brennerman was permitted to proceed pro se on
February 26 and nonetheless timely file his February 28 motion. Nor is there any allegation that
the information contained in the March 26 motion was newly discovered. Accordingly, because
the delay was not justified, the district court did not err—let alone plainly err—by denying the
March 26 motion as untimely. In any event, the district court addressed the merits of
Brennerman’s motion.
IV.

Sentence

Brennerman further challenges the procedural and substantive reasonableness of his
sentence. A district court commits procedural error if it fails to calculate the Guidelines range, *.
makes a mistake in its Guidelines calculation, treats the Guidelines as mandatory, does not
consider the Section 3553(a) factors, or rests its sentence on a clearly erroneous finding of fact.
United States v. Cavera, 550 F.3d 180,190 (2d Cir. 2008) (en banc). Facts in support of a
sentencing calculation need be established only by a preponderance of the evidence. United
States v. Beverly, 5 F.3d 633, 642 (2d Cir. 1993).
In calculating Brennerman’s Guidelines range, the district properly found that
Brennerman’s conduct “resulted in substantial interference with the administration ofjustice”
and applied the appropriate offense level enhancement, pursuant to U.S.S.G. § 2J1.2(b)(2).
Examples of “substantial interference with the administration ofjustice” include “the
unnecessary expenditure of substantial governmental or court resources.” U.S.S.G. § 2J1.2 cmt.
n.l. The district court found that Brennerman lied to and withheld documents from the court,
requiring the government to spend substantial time and resources in connection with his trial for
criminal contempt. Accordingly, the district court's decision to impose a three-level enhancement
was not an abuse of discretion.
In reviewing claims of substantive unreasonableness, we consider “the totality of the
circumstances, giving due deference to the sentencing judge’s exercise of discretion,” and we
“will... set aside a district court’s substantive determination only in exceptional cases where the

APPENDIX A

005a

Case 18-1033, Document 286-1,06/09/2020, 2857279, Page5 of 5

.

trial court’s decision cannot be located within the range of permissible decisions.” Cavera, 550
F.3d at 189-90 (internal quotation marks and citations omitted).
On the record before us, Brennerman’s sentence of 24 months’ imprisonment is
not substantively unreasonable. The district court imposed a sentence on the low end of the
Guidelines range. Indeed, Brennerman makes no argument, and cites no authority or facts, to
support his claim that his conduct warranted a below-Guidelines sentence. In light of these
circumstances and the deference we owe to the district court, we cannot say that the sentence
falls outside the range of permissible decisions.
V.

Ineffective Assistance of Counsel

Lastly, Brennerman faults his attorney for failing to obtain records from ICBC and for
moving to disqualify the district court judge. We decline to address Brennerman’s ineffective
assistance of counsel arguments at this time.
Our Circuit has “a baseline aversion to resolving ineffectiveness claims on direct review.”
United States v. Khedr, 343 F.3d 96, 99 (2d Cir. 2003). Though we have exercised our discretion
to address these claims when their resolution is beyond a doubt, id., we decline to do so here given
the absence of a fully developed record on this issue. See Sparman v. Edwards, 154 F.3d 51, 52
(2d Cir. 1998) (explaining that, “except in highly unusual circumstances,” a lawyer charged with
ineffectiveness should be given “an opportunity to be heard and to present evidence, in the form
of live testimony, affidavits, or briefs”). Accordingly, we dismiss Brennerman’s ineffective
assistance counsel claims without prejudice.
We have considered the remainder of Brennerman’s arguments and find them to be
without merit. Accordingly, the judgment of the district court hereby is AFFIRMED.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

APPENDIX A

006a

4*'

APPENDIX B
Judgement of Conviction of the United States
District Court for the Southern District of N.Y. in
United States v. The Blacksands Pacific Group, Inc.,
et. al (Brennerman), No. 17 Cr. 155 (LAK),
EFC No. 145

APPENDIX B

007a

Case l:17-cr-00155-LAK Document 145 Filed 05/23/18 Page lot6
AO 245B (Rev. 02/18)

Judgment in a Criminal Case
Sheet l

United States District Court
Southern District of New York
)
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA

v.
RAHEEM J. BRENNERMAN

THE DEFENDANT:

JUDGMENT IN A CRIMINAL CASE

Case Number: 1:17-CR-155-001 (LAK)
USM Number: 54001 -048
Raheem J. Brennerman, Pro Se
Defendant’s Attorney

□ pleaded guilty to count(s)
□ pleaded nolo contendere to count(s)
which was accepted by the court.
El was found guilty on count(s)
after a plea of not guilty,

One and Two

The defendant is adjudicated guilty of these offenses:
Title & Section

Nature of Offense

Offense Ended

Count

' 18 U.S.C. 401(3)

Criminal Contempt

9/27/2016

One

18U.S.C. 401(3)

Criminal Contempt

3/3/2017

Two

j
i

:■

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984,

6

‘

of this judgment. The sentence is imposed pursuant to

l

□ The defendant has been found not guilty on count(s)
□ Counts)

□ is

□ are dismissed on the motion of the United Slates.

i

i
5/21/2018
Date of Imposition of Judgment

■v’5-

V

I

Signature of Judge

Hon, Lewis A. Kaplan, U.S.D.J,
Name and Title of Judge

Date

APPENDIX B

fh i

008a
?

Case l:17-cr-00155-LAK Document 145 Filed 05/23/18 Page 2 of 6
AO 245B (Rev. 02/18) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page __ 2
DEFENDANT: RAHEEM J. BRENNERMAN
CASE NUMBER: 1:17-CR-155-001 (LAK)

of

6

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:
24 Months on each count, the terms to run concurrently.

□ Tire court makes the following recommendations to the Bureau of Prisons:

0 The defendant is remanded to the custody of the United States Marshal.
□ The defendant shall surrender to the United States Marshal for this district:

□ at

□ a.nr.

□ p.m.

on

□ as notified by the United States Marshal.

■J

□ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

!
i

□ before 2 p.m. on

I
It

□ as notified by the United States Marshal.

f

l

□ as notified by the Probation or Pretrial Services Office.

RETURN

li
§

I have executed this judgment as follows:

S

I

i

Defendant delivered on
at

to

I

1

, with a certified copy of this judgment.

UNITED STATES MARSHAL

I

DEPUTY UNITED STATES MARSHAL

1

By

I

I

i

APPENDIX B

009a

Case l:17-cr-00155-LAK Document 145 Filed 05/23/18 Page 3 of 6
AO 245B (Rev. 02/18) Judgment in a Criminal Case
___________________Sheet 3 — Supervised Release
Judgment—Page

DEFENDANT: RAHEEM J. BRENNERMAN
CASE NUMBER: 1:17-CR-155-001 (LAK)

3

6

of

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:
3 Years subject to the following special conditions:
shall follow all directions of the Bureau of Citizenship and Immigration Services in any proceedings it may
If the defendant is removed or deported from the United States, he shall not reenter the United States illegally.
The defendant shall provide the probation officer with any financial information he or she may request.
officer6^^3111 Shal! n0t 'nGUr n6W Credit Char96s or open additional lines of credit without the approval of the probation

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6'

7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
El The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse, (check ifapplicable)
□ You mustmake restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution, (check ifapplicable)
Sf You must cooperate in the collection of DNA as directed by die probation officer, (check ifapplicable)
*,■

^ You muSt comply with *e requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense, (check ifapplicable)
□ You must participate in an approved program for domestic violence, (check ifapplicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.
1
s
1

APPENDIX B

010a

!

Case l:17-cr-00155-LAK Document 145 Filed 05/23/18 Page 4 of 6
AO 245B (Rev. 02/18) Judgment in a Criminal Case
________ Sheet 3A — Supervised Release
Judgment-Page

DEFENDANT: RAHEEM J. BRENNERMAN
CASE NUMBER: 1:17-CR-155-001(LAK)

4

of

"6

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
.
2.
3.
4.
5.

6.
7.

8.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
trame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
TOUrt^rtheprobafo1181^'63^ ^ federai Judicial district where you are authorized to reside without first getting permission from the
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer m advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items pionibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find lull-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before die change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
probation officer’ ^ mUSt
kn0wingly communicate or interact with diat person without fust getting the permission of the

9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
„
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers)
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions ofthe probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview ofProbation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

APPENDIX B

Date

011a

i
j

I

Case l:17-cr-00155-LAK Document 145 Filed 05/23/18 Page 5 of 6

AO 24SB (Rev. 02/18) Judgment in a Criminal Case
.
Sheet 5 — Criminal Monetary Penalties

Judgment — Page
„

5

DEFENDANT: RAHEEM J. BRENNERMAN
CASE NUMBER: 1:17-CR-155-001(LAK)

of

6

CRIMINAL MONETARY PENALTIEvS
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
$ 200.00

TOTALS

JVTA Assessment*

Fine
$ 10,000.00

$

□ The determination of restitution is defened until
after such determination.

Restitution
$

. An Amended JudgmeiU in a Criminal Case(A024SC) will be entered

□ The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
the^prknity cfde1113^68 3
Paymen*>ea^' pa^ee shalUeceive an approximajel^progortioned payinent, unless specified otherwise in
before the United States is paid.** ^
vevet’ Pursuant ,0 ^
1§
non^ec*era* victims must be paid
Name of Payee

Total Loss**

Restitution Ordered

Priority or Percentage
.... . >................

wsmmmmmmgmmmm m

mmmmmmsmm

-----

•;U'i;

'V-F

Av-v :.;r K-:

ai

mammsm
TOTALS

r
uLyV.r;!'.,-:;

fgfgg

:CA‘<

0.00

$

$

0.00

□

Restitution amount ordered pursuant to plea agreement S

□

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All ofthe payment options on Sheet 6 may be subject,
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

□

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
□ the interest requirement is waived for the
□ the interest requirement for the

□

fine

□ fine

□ restitution.

□ restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110, UOA, and 113A of Title 18 for offenses committed on or
after September 13,1994, but before April 23, 1996.

APPENDIX B

012a

A024.5B

^Sl.ai-ssa0155-^ Document 145 Filed 05/23/18 Page 6 of 6
Sheet 6 — Schedule of Payments
Judgment — Page

DEFENDANT: RAHEEM J. BRENNERMAN
CASE NUMBER: 1:17-CR-155-001(LAK)

6

of

6

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

85 Lump sum payment of $
□
□

10,200.00

not later than _______________
in accordance with □ C, □ D,

due immediately, balance due
, or
□ E, or

□ F below; or

B

□ Payment to begin immediately (may be combined with

□ C,

C

□ Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or

D

□ Payment in equal
(e.g,, weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a
term of supervision; or

E

Q Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

□ Special instructions regarding the payment of criminal monetary penalties:

□ D, or

□ F below); or

the'period ofhnprfsonment^ AH^ ?th®rwisc,tifthis judgment imposes imprisonment, pm/ment ofcriminahnonetery penalties is due during
Financial Responsibility Program, are made to the'clerk of the courtf °SC payments ma e ,hrou8^tlie Federal Bureau of Prisons Inmate
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

□

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount
and corresponding payee, if appropriate.

□

The defendant shall pay the cost of prosecution.

□

The defendant shall pay the following court cost(s):

□

The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

APPENDIX B

013a

APPENDIX C
Motion for Rehearing en banc at the
United States Court of Appeals for the
Second Circuit, in United States v.
The Blacksands Pacific Group, Inc., et. al
(Brennerman), No. 18 1033 Cr., EFC No. 314

APPENDIX C

014a

Case 18J033J^ocument 314-1, 08/03/2020, 2899025, Pagel of 9

18-1033(L)
Consolidated with 1JP161»
IN THE

®ntteh States Court of Appeals!
FOR THE SECOND CIRCUIT
UNITED STATES OF AMERICA,
Appellee,
V.

RAHEEM BRENNERMAN,
Defendant-Appellant,

THE BLACKSANDS PACIFIC GROUP, INC.,
Defendant.
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK
PETITION FOR REHEARING EN BANC OF DEFENDANT-APPELLANT

John C. Meringolo
Meringolo & Associates, P.C.
375 Greenwich St., FI. 7
New York, NY 10013
(212) 397-7900
john@meringoloesq.com
Counsel for Defendant-Appellant

APPENDIX C

015a

Case 18-1033, Document 314-1, 08/03/2020, 2899025, Page2 of 9

PRELIMINARY STATEMENT
Defendant-Appellant Raheem Brennerman respectfully petitions this Court under Rule 35
of the Federal Rules of Appellate Procedure for rehearing en banc of the panel’s decision dated
June 9,2020, affirming Brennerman’s conviction for criminal contempt. The panel decision on
which rehearing en banc is requested, United States v. Brennerman, —Fed. Appx.— No. 181033,2020 WL 3053867 (2d Cir. June 9,2020) (Summary Order) is attached hereto as Exhibit
A.
Brennerman argues that the full Court should rehear the case and examine the panel’s
decision upholding Brennerman’s conviction and approving the district court’s 1) admission of a
civil contempt order against Brennerman; 2) failure to compel production of certain exculpatory

■?

materials; and 3) preclusion of the admission of evidence pertaining to settlement negotiations
because the issues raised are questions of exceptional importance. See Watson v. Geren, 587 F.3d
156,160 (2d Cir. 2009) (per curiam) (en banc) (“En banc review should be limited generally to
only those cases that raise issues of important systemic consequences for the development of the
law and the administration ofjustice.”).
STATEMENT OF PROCEDURAL HISTORY AND PERTINENT FACTS
Brennerman relies on the statement of facts in the briefing previously filed in this case
and incorporates it herein but presents the below facts that are specifically pertinent to the issue
of a rehearing.
I. Blacksands Lawsuit and Civil Contempt
Brennerman was the CEO and indirect majority shareholder of Blacksands Pacific Group
(“Blacksands”), a Delaware-based oil and gas development corporation. In 2015, Blacksands
was sued by a London-based bank, ICBC (London) PLC (“ICBC”) in connection to a $20

APPENDIX C

016a

*

Case 18-1033, Document 314-1, 08/03/2020, 2899025, Page3 of 9

million, 90-day loan agreement entered into between ICBC and Blacksands’ subsidiary,
Blacksands Alpha Blue, LLC, in 2013. ICBC London PLCw. Blacksands Pacific Group, 15-CV70 (LAK) (S.D.N.Y. 2015). ICBC alleged that Blacksands, the loan guarantor, never paid back
$5 million withdrawn from the loan. Blacksands had maintained that the loan agreement was just
one part of a larger financial arrangement between Alpha Blue and ICBC and that the principal
of the loan was supposed to roll over into a 5-year, $70 million revolving credit facility. The
district court granted ICBC’s motion for summary judgment in lieu of a complaint and a
judgment was entered against Blacksands. ICBC London PLCw. Blacksands Pacific Group, 15CV-70 (LAK) (S.D.N.Y. 2015) at Dkt. #39.
As part of post-judgment discovery in an effort to locate the company’s assets, ICBC
served requests and interrogatories on Blacksands on March 24, 2016. Blacksands objected and
ICBC filed a motion to compel, which was granted by the district court on August 22,2016 (the
“First Order”). The Order directed Blacksands to comply with all discovery requests within 14
days of the Order. Id. at Dkt. #87. Blacksands and ICBC were actively engaged in settlement
negotiations at this time, so on September 6,2016, the deadline of compliance with the First
Order, Blacksands’ counsel alerted the district court in writing that it had agreed to pay the
monetary judgment pending appeal. In anticipation of the payment, ICBC did not immediately
seek Blacksands’ compliance with the First Order. The district court held two conferences to
determine the owed judgment. At the conclusion of the second conference, however, on
September 27,2016, the Court entered an Order (the “Second Order”) that Blacksands must
either settle or comply with the discovery requests on or before October 3, 2016. It warned that
failure to comply might result in the imposition of sanctions as well as civil contempt. Id. at Dkt.
#92.

2

APPENDIX C

017a

i

Case 18-1033, Document 314-1, 08/03/2020, 2899025, Page4 of 9

The parties failed to reach a settlement and Blacksands failed to comply with the Second
Order’s discovery request so ICBC filed a motion to hold Blacksands. On October 20, 2016, the
district court held Blacksands in civil contempt. The Court did not elect to commence criminal
proceedings, but notified the parties that it would refer the matter to the United States Attorney’s
Office to consider whether to pursue criminal charges against Blacksands as well as Brennerman,
the corporation’s principal and non-party. ICBC expressed an intention to initiate civil contempt
proceedings against Brennerman.
In November 2016, Brennerman and Blacksands provided substantial document
production to ICBC. Despite this production, on December 7,2016, ICBC moved by order to
Show cause to hold Brennerman in civil contempt. Id. at Dkt. #121. On December 13,2016, a
hearing was held outside the presence of Brennerman and counsel, which found Brennerman irv:
civil contempt. Id. at Dkt. 139.
II. Criminal Trial of Raheem Brennerman
Subsequently, Brennerman was indicted for criminal contempt in violation of 18 U.S.C. §
401(3). See United States v. The Blacksands Pacific Group, Inc., 17-CR-155 (LAK). In
preparation for trial and in support of his defense that he did not willfully disobey court orders
but rather was negotiating a settlement with ICBC, Brennerman subpoenaed ICBC for all
documents related to Blacksands as well as any communications between ICBC and the
Department of Justice. ICBC did not comply. Brennerman filed a motion to compel which was
denied on the bases that the subpoena was unenforceable against a foreign bank, ICBC had not
been served, and that the documents were already in defendants’ possession. The trial
commenced on September 6,2017 and concluded on September 12, 2017, when a jury returned a
guilty verdict for two counts of criminal contempt.

3

APPENDIX C

018a

Case 18-1033, Document 314-1, 08/03/2020, 2899025, Page5 of 9

III. Appeal of Conviction
Brennerman filed a pro se brief with this Court appealing his conviction. Undersigned
counsel was appointed to represent Brennerman in connection with the filing of a supplemental
reply brief and for oral argument. On May 27,2020, this Court held telephonic oral argument
and on June 9,2020 issued a summary order denying Brennerman’s appeal. See United States v.
Brennerman, —Fed. Appx.— No. 18-1033,2020 WL 3053867 (2d Cir. June 9,2020).
This Court found that the district court did not err in its failure to compel ICBC’s
production of its entire file because Brennerman did not comply with the rules governing
subpoenas under Rule 17(d) of the Federal Rules of Criminal Procedure when he served ICBC’s
New York-based attorney, not the ICBC’s London branch. Id. at *1. The Court further concluded
that, “the prosecution was under no obligation to make efforts to obtain information beyond what
it previously collected and turned over to Brennerman.” Id.
As to the evidence concerning settlement discussions, this Court found that the district
court had allowed Brennerman “to introduce evidence concerning settlement discussions on the.
condition that he establish his knowledge of the substance of the exhibits and their relationship to
the relevant time period...” and that “through cross-examination, Brennerman was able to
introduce evidence about the parties’ settlement discussions.” Id. at *2. This Court found that
“the district court did not abuse its discretion in admitting some but not all of this evidence,
and Brennerman has failed to point to any specific evidence that would have helped his case had
it been admitted.” Id.
In regard to the admission of the civil contempt order against Brennerman, this Court
found that “the district court correctly determined, the civil contempt orders were relevant
to Brennerman’s willfulness. To minimize any potential prejudicial effect, the district court

4

APPENDIX C

019a

Case 18-1033, Document 314-1,08/03/2020, 2899025, Page6 of 9

redacted portions of the orders and instructed the jury on the limited purposes for which it could
consider the civil contempt orders in the context of a trial about criminal contempt.” Id.
REASONS FOR GRANTING EN BANC RECONSIDERATION
I. Applicable Law
Federal Rule of Appellate Procedure 35(a) provides that an en banc rehearing “will not be
ordered unless (1) en banc consideration is necessary to secure or maintain uniformity of the
court’s decisions; or (2) the proceeding involves a question of exceptional importance.”
Fed.R.App.P. 35(a). “En banc review should be limited generally to only those cases that raise
issues of important systemic consequences for the development of the law and the administration
ofjustice.” Watson v. Geren, 587 F.3d 156,160 (2d Cir. 2009) (per curiam) (en banc).
II. Discussion
A. Failure to Compel ICBC Production
Brennerman’s central argument concerning the ICBC production requests is that there
existed exculpatory materials that were not provided to him and could not otherwise be
compelled due to Rule 17 limitations regarding foreign entities. This Court did not address
Brennerman’s arguments that, if the government claimed that it had produced all documents in
its possession but the omission of the entire file was glaringly obvious, then it follows that the
government was aware that relevant information existed and was, therefore, withholding material
that it could (and should) have obtained, in violation of Brady v. Maryland, 373 U.S. 83 (1963).
Because Brennerman was effectively barred from obtaining relevant evidence, such as
the entirety of his communications with ICBC representatives, due to subpoena constraints, he
was denied the opportunity to put forth a complete defense.

APPENDIX C

5
020a

Case 18-1033, Document 314-1, 08/03/2020, 2899025, Page7 of 9

Because no meaningful inquiry was conducted, either at the district court or before this
Court, concerning the discrepancies between the government’s representations that the
production was complete and the obviously incomplete materials produced, the issue of whether
Brady obligations were flouted by the government remains open. The sanctity of Brady
obligations cannot be interpreted as anything less than a question of exceptional importance
warranting rehearing en banc to permit further reconsideration on this point.
B. Failure to Permit Full Settlement Negotiation Evidence
Without the entire ICBC file, Brennerman was precluded from presenting evidence
regarding settlement negotiations between Blacksands and ICBC. Brennerman posits that
evidence of these negotiations would have convinced the jury that he had not willfully disobeyed
any court orders.
Although Brennerman was permitted certain lines of questioning concerning settlement ,
negotiations, the admitted evidence was woefully inadequate to set forth his complete defense.
Brennerman was attempting to elicit evidence of settlement discussions with agents of ICBC

.

that, he argued, would have demonstrated that he was not willfully disobeying the district court’s
discovery orders but was instead prioritizing settlement with ICBC over his discovery
obligations. This evidence was not permitted, could not be elicited through cross-examination of
witnesses, and was not a part of the jury instructions. See United States v. The Blacksands
Pacific Group, Inc., 17-CR-155 (LAK) Tr. 236-277. Although such evidence was plainly
relevant to the issue of Brennerman's willfulness in failing to comply with the court's discovery
orders, the record was devoid of the precise evidence that would have demonstrated the
defendant's lack and intent. The district court exacerbated the harm by instructing the jury that
settlement discussions in a civil case did not excuse a defendant's failure to comply with the

APPENDIX C

6
021a

Case 18-1033, Document 314-1, 08/03/2020, 2899025, Page8 of 9

court's discovery order absent an order suspending or modifying the requirement to comply. Tr.
509-510; 538-544.
The limitation on evidence of settlement negotiations was not merely an evidentiary
issue, but rather, a constitutional one which violated Brennerman’s right to present a defense.
The violation was compounded by the fact that the district court essentially eviscerated the
element of intent in determining whether Brennerman was guilty of criminal contempt. The
panel’s decision failed to address the manner in which the district court’s evidentiary rulings
precluded Brennerman’s right to present a complete defense and rehearing en banc is warranted
to permit a full examination of this point.
C. Admission of the Civil Contempt Order
The question of whether the civil contempt order was improperly admitted against

•?>*

Brennerman goes beyond a simple analysis of Rules 403 and 404(b) of the Federal Rules of
Evidence. Brennerman was a non-party in the civil lawsuit at the time of the order. Because the
order was erroneously adjudged against him, its erroneous admission had more serious legal
implications, above and beyond an abuse of discretion analysis.
This Court has previously held that “because the power of a district court to impose
contempt liability is carefully limited, our review of a contempt order for abuse of discretion is
more rigorous than would be the case in other situations in which abuse-of-discretion review is
conducted.” Hester Indus., Inc. v. Tyson Foods, Inc., 160F.3d911,916 (2d. Cir. 1998).
“Moreover, we think it is fundamentally unfair to hold [a non-party] in contempt as if he were a
party without sufficient legal support for treating him, a non-party, as a party but only for the
purposes of discovery.” OSRecovery, Inc. v. One Groupe Int'l, Inc., 462 F.3d 87,94 (2d Cir.
2006). In OSRecovery, this Court had found that the district court abused its discretion by

7

APPENDIX C

022a

*,

Case 18-1033, Document 314-1, 08/03/2020, 2899025, Page9 of 9

holding a person “in contempt as a party without sufficient explanation or citation to legal
authority supporting the bases upon which the court relied in treating [him] as a party—for
discovery purposes only—despite die fact that [he] was not actually a party.” Id. at 93.
Here Judge Lewis A. Kaplan (the same district court judge whose contempt order this
Court found inappropriate in OSRecovery) held Brennerman in civil contempt as a non-party and
failed to provide any legal authority or present any particular theory for treating him as a party
solely for the purpose of discovery. See ICBC London PLC v. Blacksands Pacific Group, 15CV-70 (LAK) (S.D.N.Y. 2015) at Dkt. #139-140. No court orders, subpoenas, or motions to
compel were ever directed at Brennerman personally nor was he present during the civil case’s
various proceedings.
The erroneous admission of the civil contempt order was more than an evidentiary error.':
It violated this Court’s instructions concerning contempt orders against non-parties. To affirm -f,
the district court’s rulings would create a disparity with this Court’s treatment and review of such
orders and would place exceptional burdens on non-parties. Therefore, the Court should rehear,
the case en banc to reconsider this issue.
CONCLUSION
For the foregoing reasons, the Court should grant Brennerman’s request for rehearing en
banc.
Dated: New York, NY
July 17,2020

s/ John Meringolo
John Meringolo, Esq.
Meringolo & Associates, P.C.
375 Greenwich St., FI. 7
New York, NY 10013
(212) 941-2077
john@meringololaw.com
Attorneyfor Defendant-Appellant
Raheem Brennerman

APPENDIX C

8
023a

APPENDIX D
Order of the United States Court of
Appeals for the Second Circuit denying
motion for Rehearing en banc in United States
v. The Blacksands Pacific Group, Inc., et. al
(Brennerman), No. 18 1033 Cr., EFC No. 318

APPENDIX D

024a

Case 18-1033, Document 318, 09/08/2020, 2925541, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
8th day of September, two thousand twenty.

United States of America,
Appellee,
ORDER
Docket Nos: 18-1033,18-1618

v.
The Blacksands Pacific Group, Inc.,
Defendant,
Raheem Brennerman,
Defendant - Appellant.

Appellant, Raheem Brennerman, filed a petition for panel rehearing, or, in the alternative,
for rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

APPENDIX D

025a

APPENDIX E
Motion and Order of the United States
District Court for the Southern District of
N.Y. in ICBC (London) PLC v. The Blacksands
Pacific Group, Inc., No. 15 Cv. 70 (LAK)
(EFC Nos. 139-140)

APPENDIX E

026a

frWE fn

Case 1:15-cv-00070- LAK

:#ooa
03113 AH1VDIN03A3313
iN3wnooa
DIG 142Q1§
ANasoasn
UNITED STATES DISTRICT COURT=
JUDGE KAPLAN’S CHAMBERS
SOUTHERN DISTRICT OF NEW YORK
ICBC (LONDON) PLC,

15 Civ. 0070 (LAK) (FM)
Plaintiff,

-againstTHEBLACKSANDS PACIFIC GROUP, INC.,
Defendant

iRDER OF
CONTEMPT t&p

THEBLACKSANDS PACIFIC GROUP, INC. and
BLACKSANDS PACIFIC ALPHA BLUE, LLC,
Counter-Plaintiffs

ke^etT -To

ffrfceM P&tSNeRktol
i

-against-

1
ICBC (LONDON) PLC,
Counter-Defendant.

Plaintiff ICBC (London) pic’s motion [ECF 125] seeking an Order holding
jivil contempt of court and imposing coercive sanctions against him is
granftxj^rlie Court reserves decision on the portion of ICBC’s motion requesting an award of
compensatory damages.
Having considered the papers submitted by ICBC, Mr. Brennerman having failed
to file any papers in opposition, and the Court having heard oral argument the Court finds that
(1) its orders of August 22, 2016 and September 27, 2016 compelling Defendant The Blacksands
Pacific Group, Inc. (“Blacksands”) to fully comply with ICBC’s post-judgment discovery
requests (the “Outstanding Discovery Orders”) are clear and unambiguous, (2) the proof of
Blacksands’ willful noncompliance with the Outstanding Discovery Orders is undisputed, clear

1
APPENDIX E

027a

Case l:15-cv-00070-LAK Document 139 Filed 12/15/16 Page 2 of 2

and convincing, (3) Blacksands has not diligently attempted to comply with those.orders in a
reasonable manner, and (4) Mr. Brennerman is properly chargedwith^ontempt beecause he has
abetted and directed Blacksands’ noncompliance with the Outstanding Discovery Orders and
because he is legally identified with Blacksands. The Court therefore ORDERS that:

1.

Mr. Brennerman shall pay a coercive fine of $1,500 per day, commencing December 13,

2016, for each day in which Blacksands continues to fail to comply with the Outstanding
Discovery Orders. The amount of the coercive fine will double every seventh day until it
reaches $100,000 per day, and it will thereafter continue at the rate of $100,000 per day, unless
otherwise ordered by this Court.
2.

If Mr. Brennerman and Blacksands comply fully with die Outstanding Discovery Orders,

the judgment is satisfied, or at least $3 million cash is paid on account of the judgment, in each
case by 5:00 p.m. New York time on December 20, 2016, the Court will abrogate the coercive
fines imposed on Mr. Brennerman and incurred through that date; provided, that such production
or payment shall not moot the contempt that has been committed.
3.

Upon application by the Plaintiff, the Court will consider the imposition of further

sanctions, if there is an adequate showing that those imposed by this Order do not achieve
compliance. Without limiting the generality of the foregoing, ICBC is at liberty to commence by
appropriate process further civil and/or criminal contempt proceedings against Mr. Brennerman
and anyone else who is properly chargeable with contempt in this matter.
4.

The substance of this order was issued orally on December 13, 2016.

ty'Kffy
so

m

LEWIS A.

2
APPENDIX E

028a

‘LAN, USDJ

*>

Case 1:15-cv-00070-LAK Document 140 Filed 12/15/16 Page 1 of 9
1

.1

IfuSDSSDNY
''document

UNITED STATES DISTRICT COURT
SOUTHERN DIS TRICT OF NEW YORK
x

r

ICBC (LONDON) FIX,

electronically filed

DOC*__________
Plaintiff,

-against-

THE BLACKSANDS PAC IFIC GROUP, INC.,

15 Civ. 0070 (LAK)

Defendant-Counterclaimant,
-and
BLACKSANDS PACIFIC XLPHA BLUE, LLC,
Additional Counterclaimant.
x

MEMORANDUM AND ORDER
1

Lewis A. Kaplan, District Judge.
t
l
On December 12, 2016, this Court denied an ex parte application by Raheem
Brennerman for an extension of time within which to resist a motion to hold him in civil contempt
and impose sanctions on hipi. This memorandum and order explains that decision.

The Background
I

ICBC (London) pic (“ICBC”), The Blacksands Pacific Group, Inc. (“Blacksands”),
and counterclaimant Biackslmds Pacific Alpha Blue, LLC. (“Alpha Blue”), aBlacksands subsidiary,
entered into a bridge loan agreement (“BLA”) on November 25, 2013.' Under the BLA. ICBC
provided a $20 million, 190-day loan to Alpha Blue, which Blacksands absolutely and
unconditionally guaranteed," Of the available $20 million. Alpha Blue withdrew $5 million.3
1

DI 1, Ex. A Pprt 6, at 3 (PL’s Mem. of Law in Supp. ofPl.'s Mot. for Sutnm. J. in Lieu of
Compl. under CPLR 3213).
2

ld.\ BLA §9:1. The BLA was attached as an exhibit to the Clark Affidavit in ICBC’s
original filing, but when the case was removed and docketed electronically, the BLA was
I

APPENDIX E

029a

i

J

Case l:15-cv-0d)070-LAK Document 140 Filed 12/15/16 Page 2 of 9

2

Nei ther Alpha Blue, as primary obligor, nor Blacksands, as guarantor, repaid the amount owed when
it matured in February 2014.4 ICBC extended the deadline for repayment of. principal on two
occasions,-first to March 31, 2014, and later to July 31, 2014, while stili collecting interest
payments.5 After each office deadlines was missed, however, ICBC sent a notice of default to
Blacksands.6
i
On or about Pecember 8, 2014, plaintiff ICBC commenced this action in the New
York Supreme Court agains^ defendant Blacksands to recover $5 million plus interest and attorneys'
fees of nearly $400,000 on Blacksands’ guarantee of tire obligations of Alph;i Blue under the BLA.
Under New York procedure, ICBC moved for summary judgment in lieu of a complaint.7
Blacksands promptly removed the case to this Court and, in due course, both Blacksands and Alpha
Blue filed counterclaims agiunsl ICBC.8
By order dated September 29,2015. this Court granted ICBC's motion for summary
judgment on its claim on Blacksands’ guarantee and granted in substantia! part its motion to dismiss
the counterclaims.9 It also granted a Rule 54(b) certificate with respect to ICBC’s claim against:
Blacksands. The Clerk theii entered judgment in favor of ICBC and against Blacksands.
i

split among four entries: D1 I , fix. A Pan 2 at ! 1-27; Di I, Ex. A Part 3: D1 1, Ex. A Part
4; and Dt 1, Ex. A Part 5 at 1-11. The Court will cite simply to the BLA for ease of
reference. Seh also Dt 13^4 (Blacksands’ Rule 56.1 Response to Plaintiffs Statement of
Material Facts) (acknowledging formation of BLA).
DI !, Bx. 6, atj 5.
i

M; DI 13

if
i

5

DM, Ex. 6, at!4-5.
6

The first notice of default was sent on April 4, 2014 by fax, which Blacksands claims not
to have received. See DJ I, Ex. A Part 5, at 17-21 (April 4,2014 Notice of Default); DI 1.
Ex. A Part 5, it 13 (January 30,2014 letter from Blacksands providing fax number); DI 13
* 19 (Blacksands disputing receipt of April fax). The second notice was sent by courier in
August 2014,| and Blacksands acknowledges receipt. DI 13 ^ 23, 25 (Blacksands
acknowledging receipt of August 2014 Notice of Default).
7

See N.Y. C.P. L.R. 3213.
DI 11.
9

ICBC (Londoh) plow Blacksands Pacific Grp.. Inc. .2015 WL 57! 0947 tS.D.N.Y. Sept. 29
2015).

APPENDIX E

030a

:/
i

Case l:15-cv-00070-LAK Document 140 Filed 12/15/16 Page 3 of 9
*
f

;
3
;
Blacksands appealed. As no supersedeas bond or other security was posted, however,
ICBC" began post-judgment [discover)' in an effort to locate assets that might be used to satisfy the
judgment, serving document requests and interrogatories on or about March 24, 2016.10
i

Blacksands initially stonewaile-d the discovery requests, interposing frivolous
objections. ICBC then moved to compel responses. The Court granted the motion and, on August
22, 2016, directed Blacksands to respond in full within fourteen days after the date of the order."
On September 6, 2016, the day Blacksands was obliged to comply with the
August 22,2016 order (the ‘fFjrst Order’). Blacksands" counsel wrote to the Court and claimed that
Blacksands had “agreejd]” to pay the judgment Spending its appeal” and purportedly requested the
Court’s assistance in determining the amount due under the judgment.12 In reliance on the apparent
commitment to pay, ICBC did not immediately seek further relief with respect to compliance with
the First Order. The Court, at Blacksands’ request, then held two conferences with counsel in what
was said by Blacksands to be an effort to determine the amount owing.” On September 27, 2016,
however, at the conclusiontof the second conference, the Court entered the following order (the
“Second Order”): .
“On August 22, 2016, this Court directed defendant to comply fully with
certain outstanding discovery requests within fourteen days. It has not complied
with that order.
“Unless the case is fully and definitively settled on or before October 3,2016.
defendant shall comply fully with those discover)' requests no later than 4 p.m. on
that date. Any failure to comply with this order may result in the imposition of
sanctions, including those associated with contempt of court, as well as in tire
imposition of coercive sanctions and other relief for ci vil contempt. 5514
r
No settlement was reached. Accordingly, Blacksands became obligated under the
Second Order to comply fully with ICBC’s discovery requests by 4 p.m. on October 3, 2016. It

;

!C

DJ 84<8 3.

i

Df 87.

I

11

i

n
DI 88.

i

13

The point supposedly at issue was the interest calculation. See Di 88.
»

14

Di 92. For the background in this paragraph, see Messier Deck [DI 102]
I
1

APPENDIX E

I

031a

5-6.

1

Case l:15-cv-00070-LAK Document 140 Filed 12/15/16 Page 4 of 9
1

i
4
*

tailed to respond.15

f

1
In the meantime, the Court of Appeals affirmed the judgment against Blacksands.'6

ri

i

The Gontempl Adjvdication as (o Blacksands and the
\ihmiempl Application as to Brenner man
>•

Blacksands

I

t

On October |'3,2016, ICBC moved io hold Blacksands in contempt. No opposition
was filed. On October 20,2016, the Court held Blacksands in civil contempt and imposed coercive
sanctions on if In addition/the written order entered on October 24, 2016 [DI 108] reiterated the
Court's prior ■warning17 thiit Blacksands1 principal, Raheem Brennerman, would be at risk of
contempt proceedings directed at him personally in the event full compliance was not forthcoming:
1

‘"Upon application by the Plaintiff, the Court will consider the imposition of
further sanctions, if there is an adequate showing that those imposed by this Order
do not achieve compliance. Without limiting the generality of the foregoing, ICBC
is at liberty Jo commence by appropriate process civil and/or criminal contempt
proceedings 1 against Raheem Brennerman and anyone else who is properly
chargeable With contempt in this matter.”
i

Brennerman

i
f

On December 7, 2016, ICBC—based on a reasonably documented assertion that
Brennerman “controls every7 aspect of Blacksands’ existence and operation,” is “legally identified”
with it. and “has directed its continuing contempt of Court”18—moved by order to show cause to
is

i

DM 02 *17.
__ F. App’W___ . No. 15-3387, 2016 WL 5386293 (2d Cir. Sept. 26, 2016).

S' .

17

Tr., Oel. 20, |oi6[DI 110] at 8.
18

Messier DcclJf[D] 123] K 10i

The Court nofes (hat the notice of appeal from the summary judgment against Blacksands
was signed by Brennerman personally, on behalf of Blacksands and Alpha Blue, rather titan
by any attorney. Di 46. In addition, he personally wrote die Court to oppose, on behalf of
Blacksands. a motion by its first lawyers in this case to withdraw. DJ 37.
'l

APPENDIX E

|
i

032a

f

Case l:15-cv-00070-LAK Document 140 Filed 12/15/16 Page 5 of 9

f
I
f

1

5
%I
hold Brennerman in civil contempt of Court and to impose coercive sanctions.10 The Court granted
the order to show cause, m$de it returnable on December 13, 2016, and required the service and
filing of any responsive arid reply papers at or before 4 p,m. on December 11 and 12, 2016,
respectively/0 The order tb show cause and supporting papers were served electronically21 on.
Brennerman himself at 3:50|p.m. on December 7, 2016.22 They were served also on Blacksands by
personal service on Latham & Watkins (“Latham”), its counsel of record, contemporaneously.23

The Ex Parte Application
At 6:34 a.m on Sunday, December 10. 2016, Brennerman sent an email to the
Court’s deputy clerk at Ms. court email address.24 The email is headed PRIVILEGED &
CONMDENTIAL CORRESPONDENCE, Although it indicates that copies were sent to lawyers
at Latham, it bears no indication that copies were sent to ICBC's counsel despite the fact that
Brennerman knows their cniail addresses.

I

i

Attached to the email was a letter purportedly by Brennerman to the undersigned.25
The first two paragraphs requested more time to respond' to the contempt motion, stated that;
Brennerman’s choice of coiinsel to represent him in this matter was Paul Weiss which was unable
to represent him on this malter, and stated that Brennerman was “in the process of engaging new
personal counsel.” AttaeheB to the letter were copies of two emails with respect to his purported
attempt to retain Paul Weiss, and a very long settlement proposal with respect to the ICBC dispute.
There was no indication that the letter and emails were sent to ICBC’s counsel. At a December 13

I

l
t

19

t

DI 122,. at !9-j23.
.

.20

Di 121; Dl lis.
f

21

Brennerman (las refused to provide any information concern ing the location of any of his
residences orb is personal whereabouts. Latham & Watkins, which came into the case on
behalf of Blafcksands and Alpha Blue and remains their counsel of record, claims not to
know anything about; his location or whereabouts. See Tent Dec!. [DI 136]; Harris Aff.
[Dm2],
!
22

Poliak Alf. [Hi
126] & Ex. B.
b
2?

Dl 126.&Ex. A.
24

Dl 127.
25

Dl 128.

APPENDIX E

ii

033a

Case l:15-cv-00070-LAK Document 140 Filed 12/15/16 Page 6 of 9
l

I
\

'

i

c

1
court proceeding, ICBC coupsei confirmed that they had not received copies from Brennerman.

6

f

Discussion
The rules authorize extensions of time wi thin which acts may be done on a showing
of good cause where, as hdre, the extension is sought in advance of the deadline.26 Extensions
usually will be granted “unless the moving party has been negligent, lacked diligence, acted in bad
faith, or abused the privilege of prior extensions."-’ And while the rules do not explicitly require
that notice be given of suchjapplications, “|t]he prudent course ... is always to file a motion that
complies with Rule 7(b) when requesting an extension of a time period."28 which among other things
requires service on the opposing party. In any case, such applications lie within the broad discretion
of the district court.2’ The Court here considers the relevant factors to be these:
i

ippii cation was made ex parte. The fact that Brennerman wrote his letter

1.
This
pro se gives no excuse for his failure to give notice to ICBC’s counsel, as he copied lawyers at
Latham, which ostensibly does not represent Brennerman personally.
2.
The history of this matter gives little comfort that this
application—extraordinaiy n at least because of its cx parte letter and its explication of a purported
settlement offer that evidently has not been communicated to the opposing party—-is anything other
than an attempt to delay matters. Among the indications are these:
t

Brennerman was warned on October 20.2016 that he faced the possibility of
an attempt to hold him personally in contempt of court if Blacksands did not
fully jcomply with the First and Second Orders.50 Brennerman evidently
contrpis Blacksands and therefore presumably knew that Blacksands would
not comply. He therefore has known for almost two months that he was
extremely likely to face a contempt proceeding. Circumstances do not lend
a great deal of credibility to the notion that he first sought to obtain personal
counsel in that regard on December 9.
t

T«

26

Fed. R. Civ. if. 6(b)(1)(A).
27

1 James Wm.jMoore et ai., Moore’s Federal Practice § 6.06[2] (3d ed. 2016).
t

is

Id

!

29

}
30

E.g.. Smimio [v. Town of Westport., 337 F. App'x 68,69 (2d Cir. 2009).
1
See Harris Aff. [Di 129]: Tent Dccl. [D1 131],
t

APPENDIX E

1

034a

i

r

/

1
Case 1:15-cv-00070-LAK Document 140 Filed 12/15/16 Page 7 of 9
lt
i

\
!>
(
!
i
!
t

7

Brennerman has advanced no reason to think that Latham, which has been
in thjs case since the fall of 2015 on behalf of Blacksands, could not
represent him personally.
i

This fs the third and, depending on one’s interpretation of the record, perhaps
the fourth, instance in this case in which Brennerman has sought an
unspecified delay, ostensibly to retain counsel.

5
t(
* Brennerman delayed retaining counsel t o represent Blacksands i n this

| case despite the fact that he had engaged in extended pre-suit
| correspondence with plaintiff in which plaintiff made clear that it
I would sue unless Blacksands paid its debt to ICBC. Counsel did not;
1 appear on Blacksands5 behalf until January 7, 2015. nearly a month
t
J after the action commenced, and they immediately sought a 30-day
t
i extension of time on the ground that they were “only retained... last
: week. 501
1
i After Blacksands’ first, attorneys were granted leave to withdraw on
l September 18, 2015, new' counsel—Latham—did not appear until
s
! November 20,2015.32 Latham then promptly sought an extension of
; time within which to cure a default on a motion by a belated filing.
j

•

•

j
j
|
*
>
]
i
s
|

Almost immediately after entry of (he Second Order and on the day
on which the first contempt motion was made, Latham sought to
withdraw'. Ike motion was made with Brennerman's consent and
ostensibly on the basis that "the only remaining issues reiatfe] to
Blacksands' counterclaim and Plaintiffs enforcement of the
judgment.’’33 But the withdrawal, had it been permitted, would have
left Blacksands unrepresented. Whatever may have been in Latham’s
mind. Brennerman’s consent to its withdrawal would have been
consistent with an intention on his part to leave an unrepresented

i

31

Dl 5.

i

37

Blacksands ai|d Alphabiue were unrepresented during the intervening two months. During
that period, Brennerman purported to act on their behalves although he is not a member of
the Bar. See l|l 37. Dl 46.
i

3*

Harris Decl. fjoi 97] 4.

1
The Court deijied the motion without prejudice to renewal after complete disposition of the
contempt motion, which had been tiled by the time the order was entered. Dl 100. The
motion has not been renewed.

1
t
i

APPENDIX E

\

035a

A

?

Case 1:15-cv-0()070-LAK Document 140 Filed 12/15/16 Page 8 of 9
!

I
8
corporate entity to face the contempt proceeding that either had
; begun or obviously was imminent and with a further excuse for a
delay to find new counsel.

3.

ICBu asserts that events have been and are in train that have resulted, or may
result, in assets being placed beyond its reach.34 Moreover, Rrennerman’s email to a lawyer at Paul
Weiss enclosed a proposal--jnot submitted to the Court—for a reorganization of “Blacksands Pacific
Group + Persona! Re-Organization.”35 The risk of prejudice to ICBC in consequence of further
delay is palpable.
■ i

4.

I!

Finaljy, the entire purpose of these civil contempt proceedings has been to
coerce compliance with the First and Second Order, which do no more than require full and
complete responses to the |ocument requests and interrogatories 3CBC served in March 2016,
approaching a year ago. It thus has been open to Brenncrman for that entire period to eliminate the
reason for civil contempt proceedings by producing the discovery. Hie fact that he has not caused
Blacksands to do so despite <j ,ourt orders compelling that action has been in bad faith throughout and.
remains so.

The Disposition ofthe Contempt Motion Against Brennerman
|
No appearance was filed and neither Brennerman nor any attorney for Brennerman
appeared at the December Ip hearing. The Court held Brennerman in civil contempt and imposed
coercive fines on him for each day during which Blacksands continued in its failure fully to comply
with the First and Second SOrders. It reserved decision on ICBC’s request for compensatory'
damages and attorneys fees?36 Moreover, the Court made clear if Blacksands complied with the
orders, paid the judgment, |>r paid at least $3 million on account of the judgment on or before
December 20,2016, the Coi|rt would abrogate any coercive fines against Brennerman that accrued
from December 13,2016 to fend including the date of compliance or payment. It indicated also that
if Brennerman on or before December 20,2016 submitted any papers in opposition to the contempt
motion directed at him, the Court would determine whether to consider them despite their lateness
and reserved the right to reopen tire contempt proceeding with respect to Brennerman.

4

t

Conclusion
It long has bien said that a person jailed for civil contempt holds the keys to the jail

1
3‘J

See Messier qecl. fDI 123] ft 13. 23, 50-57.
35

D1 128, at 3 ofS.
36

These rulings were embodied in a written order dated December 15,2016,

APPENDIX E

036a

A

Case l:15-cv-00070-LAK Document 140 Filed 12/15/16 Page 9 of 9

9
in his or her pocket. All that needs to be done to gain release is to do what the Court has ordered.
That is true here, albeit not in a strictly literal sense. Brennerman need only see to it that Blacksands
complies with the orders to moot or reduce the civil contempt issue. His failure to do so. and hence
his application for yet morejime to avoid coercive personal sanctions, is bad faith conduct.
The Could concludes also that Bren net-man’s ex parte application was made without
notice to ICBC in the hope that the Court would act favorably on his application without benefit of
ICBC’s input. ICBC was and remains at significant risk of being further prejudiced by delay as
Brennerman proceeds, or may proceed, with various steps that may make collection of its judgment
even more di fficult. Brennerman has articulated no reason why Latham, which has long been in this
case, could not represent him on the personal contempt application. And even if there were some
issue, or if Brennerman simply would prefer other counsel, he has been cm notice of the likelihood
of this application since October 20, 2016 and thus has had ample time within which to arrange
representation.
j
In all the circumstances, the Court declined to adjourn the contempt hearing
scheduled for December 13,£016. It declined also to extend the time within which Brennerman was
obliged to submit any responsive papers. In the event he files responsive papers before the Court
decides the motion, the Court will determine whether it will consider them despite the fact that they
will have been filed out of time. Should Brennerman submit such untimely papers, he would be well
advised to respond to all of the concerns articulated in this memorandum.
SO ORDERED.
Dated:

December 15. 2016
i
Le w s ATtCkpl an V
United States District Judge

APPENDIX E

037a

APPENDIX F
Opinion and Decision of the United States Court
of Appeals for the Second Circuit in OSRecovery, Inc.,
v. One Groupe Int'l, Inc., 462 F.3d 87, 90 (2d Cir. 2006)

APPENDIX F

038a

Docket No. 05-4371-cv
United States Court of Appeals, Second Circuit

Osrecovery v. One Group Intern
462 F.3d 87 (2d Cir. 2006)
Decided Sep 5,2006

Docket No. 05-4371-cv.
Argued: May 16,2006.
88 Decided: September 5,2006. *88
89 Appeal from the United States District Court for the Southern District of New York, Lewis A. Kaplan, J. *89
Franklin B. Velie, Sullivan Worcester LLP, New York, N.Y. (Richard Vemer, on the brief), for Appellant.
Lawrence W. Newman, Baker McKenzie LLP, New York, N.Y. (Scott C. Hutchins, on the brief), for
Defendants-Appellees.
Before CARDAMONE, CALABRESI, POOLER, Circuit Judges.
POOLER, Circuit Judge.
Appellant Gray Clare appeals from an August 3,2005, order of the United States District Court for the
Southern District of New York (Kaplan, J.) holding him in contempt of court. See OSRecovery, Inc. v. One
Groupe Inti, Inc., No. 02 Civ. 8993(LAK), 2005 WL 1828736, *2,2005 U.S. Dist. LEXIS 15699, *5 (S.D.N.Y.
Aug. 3,2005). The court issued the order in response to a motion from defendant-appellee, Latvian Economic
Commercial Bank ("Lateko"), requesting that the court hold Clare in contempt for his failure to comply with a
January 13,2005, order compelling Clare to respond to Lateko's discovery requests. See id. 2005 WL 1828736
at *1,2005 U.S. Dist. LEXIS 15699, at *1-2. The January 13,2005, order instructed Clare to respond to all of
Lateko's requests, including document requests annexed to Clare's Notice of Deposition, requests for
production, and interrogatories. Clare objects to these requests, the January 13,2005, order compelling
discovery, and the contempt order on the basis that he is not a party to the underlying litigation, and he was not
subpoenaed as a non-party. Id. 2005 WL 1828736, at *1, 2005 U.S. Dist. LEXIS 15699, at * *2-3.
All parties have agreed and asserted to this Court that Clare is not actually a party. The district court, while also
acknowledging Clare's non-party status, treated Clare as a party — but only for discovery purposes — by using
two theoretical devices: estoppel and party by proxy.
We first hold that we have jurisdiction over the instant appeal because it is "final" within the meaning of 28
90 U.S.C. § 1291. Although appeals from civil contempt orders *90 issued against parties are not "final" and thus
not immediately appealable, such appeals by non-parties are "final." See Int'l Bus. Machs. Corp. v. United
States, 493 F.2d 112,114-15 n. 1 (2d Cir. 1973). Because Clare is in fact a non-party, the appeal from his
contempt order is properly appealable at this juncture.

| casetext

APPENDIX F

039a

1

Osrecovery v. One Group Intern

462 F.3d 87 (2d Cir. 2006)

We next hold that the district court abused its discretion by issuing a contempt order to a wow-party for failing
to respond to discovery requests propounded to him as a party without providing sufficient legal authority or
explanation for treating him as a party solely for the purposes of discovery. Non-parties are entitled to certain
discovery procedures, such as receiving a subpoena, before they are compelled to produce documents. See
Fed.R.Civ.P. 34(c); Fed.R.Civ.P. 45. The district court, however, permitted Lateko to treat Clare as a party,
thereby eliminating some of the procedural protections that would have been afforded to Clare had he been
dealt with as a non-party. We offer no opinion on whether the district court's theories for proceeding in this
manner were appropriate in the instant case because we find that the contempt order applying these theories did
not lend itself to meaningful review by this Court and therefore must be vacated solely on that basis.
We therefore vacate the order of the district court holding Clare in contempt of court and remand the case to the
district court for further proceedings in accordance with this decision.

BACKGROUND
OSRecovery, Inc. and a number of plaintiffs who have been referred to as numbered "Doe" plaintiffs
throughout the litigation (collectively, "plaintiffs") brought suit against defendants, including Lateko, for, inter
alia, violations of the Racketeer Influenced and Corrupt Organizations Act ("RICO"), 18 U.S.C. § 1961 etseq.,
alleging that defendants were engaged in a Ponzi scheme to defraud investors. The Doe plaintiffs' identities
were kept under seal and confidential, so that neither Lateko — nor the district court at one point — knew
which individuals were Doe plaintiffs. It is this unusual circumstance that created much of the confusion that
gave rise to the instant appeal.
At the time the action was filed, Clare was president of OSRecovery, a corporation formed for the purposes of
bringing the underlying action. Clare was also the sole shareholder of OSRecovery. He was not, however, a
plaintiff individually named in the action, and, as ultimately became apparent, he was not one of the Doe
plaintiffs either.
Because the identities of the Doe plaintiffs were unknown to the district court and to Lateko, much confusion
arose regarding whether Clare was actually one of the Doe plaintiffs. This confusion created issues during
discovery regarding the appropriate procedure for propounding discovery requests to Clare. Clare contributed
to this confusion by initially referring to himself as a plaintiff. For instance, in a letter sent to the district court
and dated May 28,2004, plaintiffs' counsel requested that the court take action on behalf of "one of the
Plaintiffs, the President of OSRecovery, Inc. — Gray Clare."
In Clare's brief, he argues that he initially referred to himself as a plaintiff because he was attempting to
become one, but his efforts were rejected by the district court According to Clare, a motion was filed on April
15,2004, to amend the complaint, which would have, inter alia, added Clare as one of the Doe plaintiffs. But,
on May 17,2004, the district court denied the motion to amend the complaint. Clare suggests that it was at this
9! point that he *91 realized he would not have an opportunity to become a plaintiff. Despite this supposed
realization, however, on May 28,2004 — nearly two weeks after the court's denial order — plaintiffs' counsel
sent the letter to the court in which Clare was characterized as "one of the Plaintiffs."
Allegedly unsure of Clare's party status, Lateko propounded numerous discovery requests to Clare as if he were
a plaintiff. OSRecovery and the Doe plaintiffs objected to these requests on Clare's behalf. Notably, their
objections did not include a claim that the requests were not properly propounded to Clare under the rules
pertaining to non-parties. Clare concedes that plaintiffs’ counsel erred in neglecting to raise his status as an

i||p casetext

APPENDIX F

040a

2

Osrecovery v. One Group Intern

462 F.3d 87 (2d Cir. 2006)

objection, but he claims that this omission occurred because counsel anticipated that Clare would ultimately
become a plaintiff, given that the motion to amend the complaint to add Clare as a plaintiff had not yet been
rejected at this point.
On January 13,2005, the district court issued an order compelling Clare to respond in full to Lateko's discovery
requests by answering the interrogatories and turning over the requested documents, and on February 8, 2005,
the court denied Clare's motion to reconsider its decision. In its order denying Clare's motion for
reconsideration, the court addressed Clare's contention that he was not a party to the underlying litigation. The
court explained that "[wjhile it appears that all now agree that Gray Clare is not in feet a plaintiff in this case..
. the feet remains that his attorneys repeatedly referred to him as a plaintiff and Lateko relied upon those
references in the unique circumstances here, in which the names of the individual plaintiffs have been filed
under seal." Because of this, the court determined that Clare "[was] estopped to deny, at least for the purp oses
of amenability to party discovery, that he is a plaintiff." The court rejected Clare's argument that counsel had
referred to Clare as a plaintiff because there was confusion over whether he was one. According to the court,
plaintiffs' counsel, who were also Clare's counsel, plainly knew who their clients were.
Subsequently, Lateko filed a motion for summary judgment dismissing plaintiffs' complaint On August 1,
2005, the district court partially granted Lateko's summary judgment motion, dismissing some of the Doe
plaintiffs and OSRecovery from the litigation. With OSRecovery no longer a plaintiff, the only plaintiffs
remaining were the Doe plaintiffs who were not dismissed from the lawsuit upon the court's grant of Lateko's
summary judgment motion.
Maintaining that he was not a party, Clare continued to refuse to comply with the January 13, 2005, order
compelling his response to discovery, and on August 3,2005, the district court issued an order holding Clare in
contempt See OSRecovery, Inc., No. 02 Civ. 8993(LAK), 2005 WL 1828736, at *2,2005 U.S. Dist LEXIS
15699, at *5-6. The order decrees that Gray shall be fined $2,500 for each day, commencing on August 12,
2005, that he fails to comply with the January 13,2005, order. Id. 2005 WL 1828736, at *2 2005 U.S. Dist.
LEXIS 15699, at *5. It also directs that "Clare be arrested wherever in the United States and its possessions he
may be found, transported to an appropriate detention facility in [the] district, and there held pending further
order of [the district court], which will be forthcoming when [Clare] demonstrates that he has complied felly
with the January 13, 2005 order." Id. (internal citation omitted).

rv

v:

In the order, the court addresses Clare's contention that he is not a party to the underlying litigation and
therefore should not be compelled to respond to the discovery requests. See id. 2005 WL 1828736, at * 1,2005
92 U.S. Dist LEXIS 15699, at *3. *92 The court, again rejecting this argument, maintains its position that Clare is
estopped to deny, for discovery purposes, that he is not a party. Id. Additionally, the court finds that Clare
should be treated as a party because "OSRecovery is nothing more than a front for Clare, who entirely
dominates and controls it." Id. Thus, according to the court, Clare is a party as OSRecoveiys proxy. Id. 2005
WL 1828736, at *1,2005 U.S. Dist. LEXIS 15699, at *3-4.
Subsequently, Clare filed a motion in this Court seeking a stay of the contempt order pending his appeal.1
During the hearing on this motion, Clare persisted in his position that he has never been a party to the
underlying litigation, arguing that "[everybody agrees [Clare] was not a party." Lateko's counsel concurred,
stating that he did not think there was a doubt about it: "[Clare] is, in fact, a third-party," and "[there is] a final
order with respect to him." Both Clare and Lateko also agreed that "[Clare] never received a subpoena." This

fpi casetext

APPENDIX F

041a

3

Gsrecovery v. One Group Intern

462 F.3d 87 (2d Cir. 2006)

Court then sought affirmation from both parties that everyone was in agreement that Clare is in fact a nonparty. Again, Lateko's counsel affirmed that "[both sides] are in agreement on that, yes." The motions panel
granted a stay, and we heard argument on May 16,2006.
1 During the instant appeal, Clare filed a motion to file exhibits with his reply brief, including the transcript of the stay
hearing, and this Court granted his request.

DISCUSSION
I. Jurisdiction
We have jurisdiction to review "final" decisions of the district courts of the United States pursuant to 28 U.S.C.
§ 1291. In general, an order of civil contempt2 is not "final" within the meaning of Section 1291 but is
interlocutory and therefore may not be appealed until the entry of a final judgment in the underlying litigation.
Int'l Bus. Machs. Corp., 493 F.2d at 114-15. "Exceptions to this rule are rare, but where they occur it is because
the interlocutory nature of the order is no longer present. Hence, civil contempts against non-parties are
immediately appealable because the appeal does not interfere with the orderly progress of the main case." Id. at
115 n. 1 (emphasis added). However, civil contempt orders against parties are interlocutory and therefore not
immediately appealable. Rather, they must await the termination of the underlying litigation. See In re von
Bulow, 828 F.2d 94,98 (2d Cir. 1987).
2 It is not disputed that the district court's order was a civil contempt order rather than a criminal contempt order, and this
is indeed correct A civil contempt order is remedial in nature while a criminal contempt order is punitive. Int'l Bus.
Machs. Corp.. 493 F.2d at 115. A civil contempt order is also contingent and coercive. Id. Just because a contempt

V-:

order includes a large fine and/or prison term does not render the order criminal. Id. at 115-16. An order that imposes
sanctions on a party for each day she disobeys the court's discovery order is a civil contempt order. See id. This is
precisely the type of order at issue in the instant case.

Clare's status in the underlying litigation is therefore critical to whether we have jurisdiction over this appeal at
this juncture. If he is a party, we may not now entertain his appeal, but if he is not a party, we may. As the
district court recognized, and all parties have agreed, Clare is in fact not a party to the underlying litigation.
Even the district court, who treated Clare as a party for the limited purposes of discovery, did not deem Clare a
party for all purposes; thus, it is clear that Clare is not actually a party to the underlying litigation, and the
93 contempt order *93 is "final," 28 U.S.C. § 1291. We therefore have jurisdiction over his appeal.

II. The Contempt Order
We review a finding of contempt for abuse of discretion. Hester Indus., Inc. v. Tyson Foods, Inc., 160 F.3d 911,
915 (2d Cir. 1998). "We have held, however, that because the power of a district court to impose contempt
liability is carefully limited, our review of a contempt order for abuse of discretion is more rigorous than would
be the case in other situations in which abuse-of-discretion review is conducted." Id. at 916 (internal quotation
marks omitted). We find that the district court abused its discretion by holding Clare in contempt as a party
without sufficient explanation or citation to legal authority supporting the bases upon which the court relied in
treating Clare as a party — for discovery purposes only — despite the fact that Clare was not actually a party.
The contempt order relies on two theories for treating Clare as a party: a party-by-estoppel theory and a partyby-proxy, or alter-ego, theory. See OSRecovery, Inc., No. 02 Civ. 8993(LAK), 2005 WL 1828736, at *1,2005
U.S. Dist LEXIS 15699, at *3-4 The contempt order, however, does not provide citation to legal support for
applying either theory in this context. In particular, the order does not explain how Clare could be transformed
into a party for discovery purposes but not for any other aspect of the litigation. See id. Additionally, the order
casetext
APPENDIX F

042a

4

Osrecovery v. One Group Intern

462 F.3d 87 (2d Cir. 2006)

does not provide enough information on the precise legal theories it is attempting to invoke. For instance, the
order states merely that Clare is "estopped" to deny that he is a party for discovery purposes. See id. 2005 WL
1828736, at *1,2005 U.S. Dist. LEXIS 15699, at *3. However, there are numerous types of estoppel,
including, inter alia, judicial and equitable estoppel, to which the district court may have been referring. See
Bates v. Long Island R.R. Co., 997 F.2d 1028,1037-38 (2d Cir. 1993) (stating the differences between judicial
and equitable estoppel).3 The order also states simply that Clare should be treated as a party because he has
acted as OSRecovery’s proxy, but it does not explain what party-by-proxy theory it is invoking. See
OSRecovery, Inc., No. 02 Civ. 8993(LAK), 2005 WL 1828736, at *1,2005 U.S. Dist. LEXIS 15699, at *3-4.
From the court's brief statements, we are unable to discern, for example, whether the proxy theory to which it is
94 referring is something more *94 akin to "piercing the corporate veil," see, e.g, Am. Fuel Corp. v. Utah Energy
Dev. Co., 122 F.3d 130,134 (2d Cir. 1997) ("Typically, piercing analysis is used to hold individuals liable for
the actions of a corporation they control."), or to treating someone as a "controlling person" under the
Securities laws, see, e.g., SEC v. First Jersey Sec, Inc., 101 F.3d 1450,1472-73 (2d Cir. 1996) (explaining that
controlling-person liability may attach if there is proof of both a violation by the controlled person and control
of the primary violator by the defendant).
3 Judicial estoppel, which requires, inter alia, that "a party both takes a position that is inconsistent with one taken in a
prior proceeding, and has had that earlier position adopted by the tribunal to which it was advanced," Uzdavines v.
Weeks Marine, Inc., 418F.3d 138,148 (2d Cir. 2005) (internal quotation marks omitted), is likely inapplicable in the
instant case where any inconsistencies appear limited to the same proceeding, see Adler v. Pataki, 185 F.3d 35,41 n. 3
(2d Cir. 1999) ("[Jjudicial estoppel applies only when a tribunal in a prior separate proceeding has relied on a party's
inconsistent factual representations and rendered a favorable decision.").
Unlike judicial estoppel, which is designed to protect the integrity of the judicial process, equitable estoppel ensures the
fairness between the parties. Bates, 997 F.2d at 1037. Equitable estoppel is proper where the enforcement rights of one

i? •

part}' would create injustice to the other party who has justifiably relied on the words or conduct of the party against
whom estoppel is sought. Kosakow v. New Rochelle Radiology Assocs., 274 F.3d 706, 725 (2d Cir. 2001). According to
federal law, "a party may be estopped from pursuing a claim or defense where: 1) the party to be estopped makes a
misrepresentation of feet to the other party with reason to believe that the other party will rely on it; 2) and the other
party reasonably relies upon it; 3) to her detriment" Id.

It is unclear, however, which estoppel and which party-by-proxy theory the court applied because the contempt
order does not specify.4 Nor does the January 13,2005, order compelling Clare's compliance with the discovery
requests shed any light on this issue. That order merely states that it grants Lateko's motion to compel
discovery, but it does not provide a rationale for treating Clare as a party, especially in light of the peculiar
circumstance of treating him as a party for this limited purpose only.5
4 The contempt order similarly foils to specify on which facts the court relies in concluding that OSRecovery is merely a
front for Clare.
5 The district court also used this party-byestoppel theory to treat Clare as a party in the February 8,2005, order denying
Clare's motion for reconsideration of the court's order compelling Clare to respond to discovery. This order also lacks
citation to precedent or an explanation for applying estoppel in this manner.

Although we review the district court's order for abuse of discretion, "[r]eviewable-for-abuse-of-discretion does
not mean unreviewable." In re Mazzeo, 167F.3d 139,142 (2d Cir. 1999); see also Jones v. UNUMLifelns. Co.
ofAm., 223 F.3d 130,138 (2d Cir. 2000). The lower court's findings of fact and conclusions of law must be
sufficient to permit meaningful review, "and where such findings and conclusions are lacking, we may vacate

casetext

APPENDIX F

043a

5

Osreoovery v. One Group Intern

462 F.3d 87 (2d Cir. 2006)

and remand." In re Mazzeo, 167 F.3d at 142. Moreover, we think it is fundamentally unfair to hold Clare in
contempt as if he were a party without sufficient legal support for treating him, a non-party, as a party but only
for the purposes of discovery.
There may be grounds for applying equitable estoppel, and even for applying it solely to discovery as the
district court did in the instant case. But, if those are the grounds, the district court should provide: (1) more
explicit factual findings supporting this, and (2) since it seems to us to be possibly a new legal theory, citations
to whatever adjacent support exists. That way we may decide whether to adopt that theory, which may be a
broadening of the concept of equitable estoppel. Alternatively, if it is not a broadening because there are cases
on point, we invite the district court's assistance in telling us so.
We therefore vacate the order and remand the case, so that the district court may decide how to proceed. If the
court deems it appropriate to hold Clare in contempt of court, it should address the issues set forth above, so
that this Court may ascertain the appropriateness of such action.

CONCLUSION
For the foregoing reasons, we vacate the contempt order and remand the case to the district court for
proceedings in accordance with this decision.
95

*95

casetext

APPENDIX F

044a

6

APPENDIX G
Petition, Opinion and Order of the United States
District Court for the Southern District of N.Y.
in United States v. The Blacksands Pacific Group, Inc.,
et. al. (Brennerman), No. 17 Cr. 155
(EFC No. 59, 76)

APPENDIX G

045a

Case 1:17-cr-00155-LAK Document 59 Filed 08/28/17 Page 1 of 2
(| * SDCSDNY
DOCUMENT
! ELECTRONICALLY FILER
! DOC #:
date FILED: 2/zx/ioi7

UNITED STATUS DISTRICT COURT
SOUTHERN DISTRICT O? NEW YORK

}

X

UNITED SI’ATHS.

i7-cr-0:55 <LAK) j 15-cv-0070

- against
BLACKSANDS PACIFIC CROUP INC. and
RAJ1BHM BRHNNBRMAN.
: Dafcr-oants.
V

ORD2R TO SHOW CAUSE TO COMPEL
ICBC (LONDON* PLC TO RESPOND TO SUBPOENA
Upon 'ho declaration of jMcranda E. Fritz, sworn to August 25. 2017, ard the
Memoranda^ of Law in Support of the Motion to Compel, it is
fftytfsTAUjLaUiX
CUa4
ORDERED, that ICBC (London) PLC^showeause before s~—

fA •

on
-riijirti

kof&floll «•«.

^,.T

TT-T*.

mm

AMiaaM>svT.rv’ an order should not be issued ccmpeiiiuu ICBC

(London's PLC to respond to Eke subpoena dated August 22.2017^ ■I'rv.-rr-.-nhjy
f VO "■V2T>^'r^ C-

Tv
A

> ;.v **

V, ,

tnriimtfria

y.ffA

WB

v/.: £ v

-w.

•cv
TV.

APPENDIX G

046a

Case l:17-cr-00155-LAK Document 59 Filed 08/28/17 Page 2 of 2

Addition to Order to Show Cause

United States v. Biacksands etc.. ]7-cr-015S. 15-cv-0070 fLAKt
[follows “August 22, 2017,”]

a copy of which is attached to the- Fritz declaration as Exhibit A (assuming that said subpoena has
been or hereafter is duly served on it). It is further
ORDERED that delivery of a copy of this Order and the papers upon which it is
based shall be made upon ICBC (London) PLC’s counsel, Paul Hessler, by email, on or before 5
p.m. today, which shall be deemed good and sufficient service thereof It is further
ORDERED, that the motion will be taken on submission, without any personal
appearance, and any opposing and reply papers with respect to the motion shall be filed
electronically no later than August 29, 2017, and August 30,2017, in each case by 5 p.m.
SO ORDERED.
Dated:

August 28,2017

Lewis A. K^fpiK/
United States District Juuge

APPENDIX G

047a

Case 1:17-cr-00155-LAK Document 76 Filed 09/01/17 Page 1 of 3

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
x

UNITED STATES OF AMERICA,
17-cr-0155 (LAK)

-against-

i
| USDCSDNY
! DOCUMENT

RAHEEM BRENNERMAN, et ano„
Defendants.
x

i

ELECTRONICALLY FILED
DOC #:____________________
! DATE FILED; ?/// 2 OP

MEMORANDUM AND ORDER

Lewis A. Kaplan, District Judge.
Defendants move for an order compelling ICBC (London) pic (“ICBC”) to respond
to a trial subpoena dated August 22, 2017. The subpoena purports to be returnable on September 7,
2017. The trial is to begin on September 6.2017. ICBC opposes the motion on a number of grounds.
At present, however, it suffices to address only one.
Defendants have not filed any conventional proof of service of the subpoena on ICBC.
Rather, their moving declaration relates only that (1) defendants’ counsel had a number of
communications with Paul Hcsslcr, Esq., who represents ICBC in the civil case in which (i) the orders
that defendants are accused of violating contumaciously were entered and (ii) the government filed
the petition to hold defendants in criminal contempt, and (2) Mr. Hessier took the position that the
civil case and this prosecution arc separate cases, that ICBC is not a party in this criminal case, and
that he is not authorized to accept service of a subpoena in this case. Defendants’ declaration attaches
as Exhibit B an email chain that indicates that defendants’ counsel provided a copy of the subpoena
to Mr. Hessier.
In opposing defendants’ motion. ICBC argues that it. has not been, and could not be,
served in this action. Its argument in essence rests on the proposition that this criminal contempt
proceeding and the civil case in which ICBC is a plaintiff-judgment creditor (and in which
Mr. Hessier appears on its behalf) ore entirely separate. Defendants, however, contend that sen-ice
on Mr. Hcsslcr (assuming that emailing him a copy of the subpoena constituted service) was valid
because, in view of this Court’s previous orders, this prosecution is part of the underlying civil case.
These opposing arguments in other circumstances might raise interesting questions in
light of the fact that criminal contempt proceedings occupy a unique position in our jurisprudence:
“A contempt proceeding is sui generis. It is criminal in its nature, in that, the party is
charged with doing something forbidden, and, if found guilty, is punished. Yet it may

APPENDIX G

048a

Case l:17-cr-00155-LAK Document 76 Filed 09/01/17 Page 2 of 3

N

2
be resorted to in civi l as well as criminal actions, and also independently of any civil
or criminal action." Bessette v. W.B. Conkey Co., 194 U.S. 324, 326 (1904).
But it is unnecessary for present purposes to probe the precise boundaries here.
The fact that Mr. Hessler is counsel to ICBC in the civil case would not make the
purported service on him (even if that purported service were sufficient, which it was not) effective
as to ICBC, regardless of the view taken of the fact that this prosecution was initialed by a petition
filed by the government in the civil case. Mr. Hessler is not the witness whose attendance, and the
production of whose documents, the subpoena seeks to compel. Even a party to a civil case who is
represented by counsel must be served personally with a subpoena. Service on a party's lawyer is not
sufficient. Harrison v. Prather, 404 F.2d 267,273 (5th Cir. 1968) (service of subpoena on lawyer for
party insufficient); Cadlerook Joint Venture, L.P. v. Acton Fruits rt Vegetables, hie., No. 09-cv~2507
(RRM), 2010 WL 2346283, at *3 (E.D.N.Y. Apr. 21,2010) (“service ... on plaintiff's counsel, as
opposed to personal sendee on plaintiff,... improper") (citing Harrison)-, Aristocrat Leisure Ltd. v.
Deutsche Bank Trust Co. A ms., 262 F.R.D. 293, 304 (S.D.N.Y. 2009) (“Unlike sendee of most
litigation papers, .service on an individual’s lawyer will not suffice."); In re Smith, 126 F.R.D. 461,
462 (E.D.N.Y. 1969) (“service of subpoena on plaintiffs counsel, as opposed to personal service on
plaintiff, . . . improper") (citing Harrison)-, 9 A CHARLES ALAN WRIGHT, BT AL., FEDERAL PRACTICE
AND PROCEDURE: Ci vil § 2454 (3d cd. 2017 update) (same); see Khachikian v. BASF Corp., No. 91cv-0573 (NPM), 1994 WL 86702, at *1 (N.D.N.Y. Mar. 4, 1994). The relevant language of the
criminal rule is substantially identical.’ And defendants’ application would be denied even if one
were to pass over that rather obvious point.
Rule 17(d) of the Rules of Criminal Procedure provides for service of subpoenas in
criminal cases. It states in relevant part: “A marshal, a deputy marshal, or any nonparty who is at least
18 years old may serve a subpoena. The server must deliver a copy of the subpoena to the witness
and must tender to the witness one day’s witness-attendance fee and the legal mileage allowance.’’
Rule 17(e) governs the permissible place of service, and clause (2) provides that “{i]f the witness is
in a foreign country, 28 U.S.C. § 1783 governs the subpoena’s service." Rule 45 of the Federal Rules
of Civil Procedure, which provides for the service of subpoenas in civil cases, is to exactly the same
effect, as Rule 45(b)(3) is substantively identical to Criminal Rule 17(c)(2). Thus, regardless of
whether this criminal contempt proceeding is to be treated—for purposes of service of subpoenas—as
part of the underlying civil case or as a separate criminal case, the bottom line is that the availability
and service of a subpoena on a witness outside the United States is controlled by Section 1783 of the
judicial Code.
Section 1783(a) authorizes a district court to issue a subpoena to “a national or resident
of the United States who is in a foreign country." Section 1783(b) goes on to provide in relevant part:

Fed. R. Grim. P. 17 provides that “[tjhe server must deliver a copy of the subpoena to the
witness.” Fed. R. Civ. P. 45(b)(1) provides that “[sjerving a subpoena requires delivering
a copy to the named person.”

APPENDIX G

049a

Case 1:17-cr-00155-LAK Document 76 Filed 09/01/17 Page 3 of 3

'<
a

“Service of the subpoena and any order to show cause, rule, judgment, or decree
authorized by this section . . . shall be effected in accordance with the provisions of
the Federal Rules of Civil Procedure relating to service of process on a person in a
foreign country. The person serving tire subpoena shall tender to the person to whom
the subpoena is addressed his estimated necessary travel and attendance expenses, the
amount of which shall be determined by the court and stated in the order directing the
issuance of the subpoena.”
In this case, defendants did not seek, and this Court did not issue, an order authorizing
the issuance of this subpoena.2 Nor would the Court authorize its issuance nunc pro tunc because it
is undisputed that ICBC is “a foreign bank located approximately 3.500 miles from the courthouse.”
Df 69. It is not “a national of the United States who is in a foreign country.” Accordingly,
Section 1783(a) does not authorize issuance of a subpoena to it. See Aristocrat Leisure, 262 F.R.D.
at 305; United States v. Korolkov, 870 F. Supp. 60, 65 (S.D.N.Y. 1994) (citing Fed. R, Crim. P.
17(e)(2), 28 U.S.C, § 1783, and United States v. Johnpull, 739 F.2d 702, 709 (2d Cir. 1984)); accord
Wright, supra, § 2462.
For the foregoing reasons, defendants' motion to compel ICBC [Dl. 59] to respond to
the subpoena dated August 22, 2017 is denied in all respects.
SO ORDERED.
Dated:

September 1, 2017

/s/

Lewis A. Kaplan
Lewis A. Kaplan
United States District Judge

The Clerk of Court ordinarily provides to counsel, on request, signed and sealed subpoena
forms with counsel left to fill in the name of the witness and perhaps the date and t ime of
the required appearance. The Court assumes that is unobjectionable where the witness
subpoenaed is in the United States. Section 1783(b), however, refers explicitly to an “''order
directing the issuance of ihe subpoena.” Thus, the issuance of a § 1783 subpoena is
appropriate only upon a judicial order.

APPENDIX G

050a

APPENDIX H
Transcript of Proceedings and Oral Ruling
United States District Court for the Southern District of
N.Y. in United States v. The Blacksands Pacific Group, Inc.,
et. al. (BrennermanJ, No. 17 Cr. 155 (LAK)
(Trial Tr. 3-7; 269-277; 236-249; 509-510; 538-544)

APPENDIX H

051a

3

Case l:17-cr-00155-LAK Document 98 Filed 09/22/17 Page 3 of 103
H966blavdl

«•

1

the issue in the charge conference and maybe on motions, but I

2

will tell you that provisionally without hearing anything from

3

either of you about the case.

4

to me.

5

F.2d, 29 principally at page 37 but not only on page 37.

6

That's the first item.

7

It seems to make a lot of sense

The case is G & C Miriam v. Webster Dictionary, 639

Now, I have Ms. Fitz's letter of September 3rd.

Does

8

anybody have anything further to say about the subject raised

9

there?

10

No.

11

MS. FRITZ:

12

Your Honor, with respect to that letter,

we forwarded the letter and now we've had a bit of a dialogue

13

on it.

14

some additional, remarks in our September 5th letter,

15

those relate to the same issue that was presented in the

16

September 3rd letter.

17

The government did respond on the issue and we provided-,

THE COURT:

Yes.

All of

I've seen the September 5th letter

18

also.

19

the two civil contempt orders in the civil case because they go

20

at least to the question of whether failure to comply with the

21

underlying disclosure orders was willful at least from the date

22

of the civil contempt adjudications.

23

in my view supports that.

24

find it here.

25

421471 and Red Bull Interior Demolition v. Palmadessa, 908

It seems to me that the government is allowed to prove

There is authority that

As long as we have a moment, I will

I refer to United States v. Wells, 1994 WL

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
APPENDIX H

■i;

052a

Case l:17-cr-00155-LAK Document 98 Filed 09/22/17 Page 4 of 103
H966blavdl
1

F.Supp 1226 at 1241.

2

are the things I have in mind.

3

4

There may be other authority, but those

With respect to that, I have the two orders of

4

contempt before me.

5

here are.

6

I think there could be some redactions from this that might

7

improve the situation.

8

I don't know what their exhibit numbers

The first one is Document 108 on the civil docket.

So try to follow along with me.

The second paragraph, which starts with the words

9

"Having considered," over onto page 2 and concluding with the

10 .

words "reasonable manner" seems to me might be usefully might

11 :

be redacted because the recitals I don't think do much of

12

anything, and they contain findings that are not necessary to.

13

the willfulness and indeed the knowledge issues to which this

14

is also relevant.

15

Secondly, paragraphs two through five are unnecessary

16

and could be redacted.

17

as to whether the fact that I am the judge who signed the order

18

should remain or should be redacted, just my name and

19

signature.

20
21

I don't know if either side has a view

Does anybody have any comments on those proposed
redactions?

22

MR. LANDSMAN-ROOS:

One clarification, point, your

23

Honor.

24

October 24th, 2016 order, referenced the redaction of paragraph

25

five.

The order, which is Government Exhibit 311 and is the

I assume you're meaning what you have renumbered as

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

053a

Case l:17-cr-00155-LAK Document 98 Filed 09/22/17 Page 5 of 103
H966blavdl

1

paragraph five in addition to the excised?

2

THE COURT:

No, I didn't renumber it.

I don't think I

3

renumbered anything.

Oh, I see what you are saying.

4

two paragraph fives.

I was proposing to redact both of them.

5

MR. LANDSMAN-ROOS:

6

THE COURT:

7

There are

Okay.

Any other comments from either side on the

proposed redactions?

8

MS. FRITZ:

Your Honor, with respect to any of the

9

issues relating to contempt, it has been our position

10

throughout that the contempt information should not be

11

presented.

12
13

5

I understand that your Honor just referenced — *

THE COURT:

I understand that.

MS. FRITZ:

I want the record to reflect that both

I am ruling against£

you.

14
15

sides have now cited for the Court the decision in Senffner 'J-

16

that your Honor didn't reference a moment ago.

17

THE COURT:

Which I have read and to the extent, if

18

any and I doubt much, it supports or point of view, I disagree

19

with it in this context on these facts.

20

MS. FRITZ:

It appears, though, that your .Honor is

21

being guided by it somewhat though by trying to remove findings

22

that would be redundant to what the jury is being asked.

23

THE COURT:

If you don't want them removed or you want

24

to remove different ones, you should tell me.

25

disrespect.

APPENDIX H

I mean no

This is not a continuing seminar.
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
054a

I am offering

6

Case l:17-cr-00155-LAK Document 98 Filed 09/22/17 Page 6 of 103
H966blavdl
1

to redact material because I am trying to be responsive to

2

concerns you have raised where I think the proposed redactions

3

are not necessary to the proper use the government in my view

4

is entitled to make of the contempt finding,

5

like the redactions, you don't want them, you want them all to

6

stand, fine; but I am not going to back to square one of the

7

discussion of whether the fact of the contempt will go before

8

the jury.

9
10

Now, if you don't

It will.
MS. FRITZ:

Our position is on the record.

We

appreciate the redaction.

11

THE COURT:

12

With respect to the order finding Mr. Brennerman

Fine.
7*

13

personally in contempt, which was Docket Item 139 in the civil

14

docket, I am treating essentially the same way.

15

full paragraph, except for the final fragmentary sentence which

16

reads "The Court therefore orders that" would be redacted.

17

least that is my proposal.

18

three are unnecessary to the proper use.

19

them out, I will take them out.

20
21

MS. FRITZ:

The second

It seems to me paragraphs two and
If the defense wants

The defense's position is we would like to

keep two, but the other redactions are fine.

22

THE COURT:

Two is relevant why and what is the

23

government's position?

24

first.

25

Let's take the government's position

MR. LANDSMAN-ROOS:

APPENDIX H

At

Well, your Honor, it is not

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
055a

Case l:17-cr-00155-LAK Document 98 Filed 09/22/17 Page 7 of 103
H966blavdl
1

7

immediately clear to me what the relevance of two is.

2

THE COURT:

3

the whole order in.

4

Do you object to it?

MR. LANDSMAN-ROOS:

5

Yes.

You wanted to put

We don't have an objection

to it.

6

THE COURT:

7

of that.

8

Paragraph two will stand.

That takes care

So that takes care of the September 3rd letter.
Now we have Ms. Fitz's letter of September 5th, Docket

9

Item 86 in the criminal docket.

10

What is going on with these

transcripts and motion papers, Mr. Landsman-Roos?

11

MR. LANDSMAN-ROOS:-

Yes, your Honor.

At this time

12

we're not intending to enter in as exhibits the transcripts or.

13

the motion papers, at least they are in the 300 series, which

14

is cited in the letter.

15

series are documents that were found in Mr. Brennerman's

16

apartment.

17

are relevant to his notice, knowledge, willfulness.

The one potential exception is the 100

So to the extent the motions existed there, they

18 .

THE COURT:

Ms. Fitz.

19

MS. FRITZ:

My position is to the extent that the

20

motions are being put in, whatever may be the rationale for

21

them being put in, we would object to it first of all but also

22

we want to make certain that whatever the opposition is,

23

whatever the opposing pleading is also becomes part of the

24

record.

25

THE COURT:

APPENDIX H

We'll deal with it if and when it arises.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
056a

Case 1:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 166 of 228
H97dbla5
Hessler - cross
1

Q.

2

settlement discussions are ongoing?

Mr. Hessler, does the document reference the fact that the

3
4

269

THE COURT:

The document speaks for itself.

Next

question.

5

I'm sure the members of the jury are fully capable of

6

reading it.

7

Q.

8

the settlement discussions continue between you and Blacksands?

All right.

9

During that time period, September of 2016, did

MR. LANDSMAN-ROOS:

10

THE COURT:

Objection.

Sustained.

11

Q.

12

from there, did the settlement — did the discussions continue?

13

between you and Blacksands regarding payment of the judgment? *■

During the period September 27th through and continuing on

14

MR. LANDSMAN-ROOS:

15

THE COURT:

Sustained.

16

MS. FRITZ:

If we could pull up Exhibit Y.

Objection.

17

Q.

18

communicate over to Chris Harris certain terms pursuant to

19

which ICBC would accept — would agree to a settlement of the

20

matter?

21

A.

As of on or about Monday, September 26th, did you

Bear with me.

22

(Pause)

23

Yes.

24

Q.

And did you communicate that by email over to Mr. Harris?

25

A.

Yes.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

057a

Case l:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 167 of 228

v

H97dbla5
1

Q.

2

Exhibit Y?

3

A.

Yes.

4

Q.

OK.

OK.

And is that the email that you are looking at there,

5

MS. FRITZ:

6

MR. LANDSMAN-ROOS:

7

THE COURT:

8

MR. LANDSMAN-ROOS:

9

I offer into evidence Exhibit Y.
Objection.

Ground?
It is the 403 connection issue

that we have discussed.

10

THE COURT:

11

BY MS. FRITZ:

12

Q.

13

ICBC has agreed —

Sustained.

Did you communicate to Mr. Harris in that same email that

14

MR. LANDSMAN-ROOS:

15

THE COURT:

16

270

Hdssler - cross

Objection.

Ms. Fritz, I just sustained the objection

to the document.

17

MS. FRITZ:

Yes.

18

THE COURT:

And you know that it is inappropriate to

19

refer in a question to the contents of a document that is not

20

in evidence, and your question is embarking on embodying the

21

content of the document I just excluded and thereby bringing it

22

to the attention of the jury, in violation of my ruling,

23

objection is sustained.

24

BY MS. FRITZ:

25

Q.

The

It's not to happen again.

On or about September 26th, did you also confirm to Chris
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

058a

r; ■

Case 1:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 168 of 228
H97dbla5
1

Harris that ICBC was forbearing its further —

2
3

271

Hessler - cross

MR. LANDSMAN-ROOS:
Q.

Objection.

— discovery — demand for the discovery at that point?

4

THE COURT:

Answer that yes or no.

5

A.

I don't recall.

6

Q.

I understand.

7

see if that refreshes your recollection, particularly paragraph

8

2.

9

If you could take a look at the document and

(Pause)

10

A.'

So, I'm sorry, can I have your question again?

11

Q.

Did you communicate to Mr. Harris, on or about

12

September .26th, that ICBC was forbearing pressing its discovery

13

demands at that point?

14

A.

No.

15

Q.

Did you state to Mr. Harris that ICBC will not seek further

16

relief

17

MR. LANDSMAN-ROOS:

18

THE COURT:

19

Are we talking about a telephone

conversation, a meeting, or the document I've excluded?

20
21

Objection.

MS. FRITZ:

We're talking about the communication that

did occur in writing in the document.

22

THE COURT:

Sustained.

23

Q.

24

the discovery demands relating to the Court's order dated

25

August 22nd?

At the time September 26th, were you continuing to pursue

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

059a

Case l:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 169 of 228
H97dbla5

272

Hessler - cross

1

A.

2

going to receive payment of the judgment,

3

discovery was to enable us to enforce the judgment.

4

September 6th, when Mr. Harris represented to the Court that

5

Blacksands agreed to pay the judgment, we put some faith in

6

that because of the standing in which we held Latham & Watkins

7

and Mr. Harris.

8

Court that Blacksands had agreed to pay the judgment, we

9

unilaterally took the position that we would not continue to

10

litigate to obtain the responses that we were entitled to on

11

September 6th because we didn't want to waste the money doing

12

that because we had been led to believe, by Mr. Harris, that we .j;*,

13

would imminently receive payment.

14

Q.

15

regarding payment of the judgment, I believe you stated during

16

your direct examination that Blacksands had not provided

17

specific information about its proposal for payment of those —

18

of the judgment?

My client and I had no need to pursue discovery if we were
The entire point of
On

And in reliance on his representation to the

With respect to the settlement discussions, or discussions

19

MR. LANDSMAN-ROOS:

20

THE COURT:

Objection.

Sustained.

21

Q.

22

proposals — specific information regarding how it could pay

23

the judgment?

Did Blacksands during this period of time provide specific

24

MR. LANDSMAN-ROOS:

25

THE COURT:

Objection.

Sustained.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDDC H

060a

Case l:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 170 of 228
H97dbla5

1

Q.

273

Hessler - cross

Did Blacksands

2

THE COURT:

It is not an accurate summary.

Let's just

3

go on.

4

Q.

5

information regarding how it intended to pay the judgment?

6

A.

7

10,000-foot level explanations of where the money would come

8

from.

9

there was one proposal that some unrelated party had proposed

Did Blacksands, during this period of time, provide

In vague terms we received sort of very, you know, sort of

For example, I don't recall if it was this proposal, but

10

to put up a residential apartment in Manhattan as security

11

pending payment of the judgment, for example.

12

communications from Blacksands about potential financings from*;

13

which we would be paid.

14

were now three years into this litigation, and we were not

15

going to put our faith in those further vague statements.

16

We had a lot of

None of them had come to fruition.

We.j

So, we asked for specific information, for example,

17

who owned the property, were there any security, were there any

18

liens on the property, was there a mortgage on it, how was the

19

financing proposed to work, how was the grant of security

20

proposed to work.

21

description of what was planned or proposed, we never received

22

the concrete details that we had asked for that would have

23

given us the assurances we would have needed to forbear from

24

enforcement.

25

Q.

And other than the initial high-level

You mentioned this issue of security.

Was that an issue

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

061a

Case l:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 171 of 228
H97dbla5
Hessler - cross

274

1

that ICBC had raised, that it wanted security if the proposal

2

was that its judgment would be paid sometime in the future?

3

MR. LANDSMAN-ROOS:

4

THE COURT:

5

MR. LANDSMAN-ROOS:

6

THE COURT:

7

MR. LANDSMAN-ROOS:

8

Objection.

Ground?
The same objection, 403.

Anything else?
I think there is also perhaps a

form objection there.

9

THE COURT:

10

BY MS. FRITZ:

11

Q.

Sustained' at least as to form.

Let's just take a step back.

12

The proposal that Blacksands made with respect to

■m

13

paying the judgment, did that involve a project that Blacksands

14

was currently involved in?

15

MR. LANDSMAN-ROOS:

16

THE COURT:

Objection.

Sustained.

17

Q.

18

information about a project from which Blacksands intended to

19

pay the judgment?

Was the discussion that was going on relating to providing

20

MR. LANDSMAN-ROOS:

21

THE COURT:

Objection.

Sustained.

22

Q.

23

discussion, now moving into the November timeframe, regarding a

24

meeting, Blacksands and ICB attending a meeting to further

25

discuss the proposal that Blacksands was making?

Based on the conversations that occurred, was there

APPENDIX H

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
062a

!

Case l:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 172 of 228
H97dbla5
1

MR. LANDSMAN-ROOS:

2

THE COURT:

3

Q.

Objection.

Sustained.

Did a meeting then occur in London?

4

MR. LANDSMAN-ROOS:

5

THE COURT:

Objection.

Sustained.

6

Q.

7

provided by Mr. Brennerman, the one that you looked at earlier,

8

you had indicated that it included documents regarding some

9

contracts, things like that.

In connection with the document production that was

10

MR. LANDSMAN-ROOS:

11

■

THE COURT:

Do you recall that?
Objection.

Sustained.

It is not an accurate summary

12

of what he said.

13

may have been other things, two unsigned leases for office

14

space, or something like that.

15

•

275

Hessler - cross

He said, as I remember, notably, though ther^„

MS. FRITZ:

OK.

16

Q.

17

was provided also included documentation relating to the

18

project that Blacksands was involved in at that point?

Do you have a recollection of whether that discovery that

19

MR. LANDSMAN-ROOS:

20

THE COURT:

21

Objection.

Sustained.

That .assumes that there was in

fact a project that Blacksands was involved in.

22

MS. FRITZ:

Not assuming that, again —

23

THE COURT:

Of course it does.

The question says, "Do

24

you have a recollection of whether that discovery that was

25

provided also included documentation to the project that
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

063a

Case l:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 173 of 228
H97dbla5
Hessler
cross

■v.

1

Blacksands was involved in at that point?"

2

question.

3

BY MS. FRITZ:

4

Q.

5

presentation done for ICBC regarding Blacksands' project?

That was your

At the meeting in London, was there an extensive

6

MR. LANDSMAN-ROOS:

7

-THE COURT:

Objection.

Sustained.

There was no evidence of any

8

meeting in London, there are simply questions, to which

9

objections have been sustained.

•TO
11

The jury is reminded that the questions are not
evidence.

12

MS. FRITZ:

If we could pull up Defendant AI.

13

Q.

14

meeting in London at the offices of Exotic

OK.

So let me just ask you, Mr. Harris, was there a

15

MR. LANDSMAN-ROOS:

16

THE COURT:

■ • 17
18

meeting in London.

Objection.

\*f.V
(•. £ ■

r

I believe you already asked if there was a
I sustained that objection.

Am I mistaken,

Ms. Fritz?

19
20

276

MS. FRITZ:

Your Honor just indicated that I needed to

prove that there was a meeting.

21

THE COURT:

I didn't say that at all.

22

question assumed that there was one.

23

prove it.

24

if indeed there ever was a meeting.

25

Now, let's get on with.it.

APPENDIX H

I said your

I didn't say you had to

I sustained the objection to your attempt to do so,

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
064a

Case 1:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 174 of 228
H97dbla5

277

Hessler - cross

1

Q.

2

that a communication that you had with Chris Harris during the

3

period November 2016?

4

A.

Yes, it is.

5

Q.

OK.

6

occurring between —

Mr. Hessler, if you could take a look at Exhibit AI.

Is

And does this relate to the discussions that were

7

MR. LANDSMAN-ROOS:

8

THE COURT:

9

Now, I don't want to do this, but if you can't ask

Objection.

Sustained.

10

proper questions from this point onward, I'm going to have to

11

consider terminating your examination.

12

I have made the ruling.

13

relevant.

14

you are going to sit down.

15

This material is not

You are going to go on to a different subject, or

MS. FRITZ:

If we could pull up Government Exhibit

16

309.

17

Q.

18

filed an order to show cause for an adjudication of contempt

19

against Blacksands?

20

A.

Yes.

21

Q.

And is Exhibit 309 a copy of the document filed by

22

Blacksands but also with entries by the Court?

23

A.

24

commenced that motion, yes.

25

Q.

Did there come a time on or about October 14th when ICBC

Yes.

This is a copy of the order to show cause that

All right.

And can you briefly explain what is meant by

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

065a

Case 1:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 133 of 228
H97dbla5
1

Q.

2

October, is that correct?

3

A.

4

prior to the beginning of October.

OK.

No.

5
6

And those continued through the period September and

I believe that discussion ended prior to the end —

MS. FRITZ:

All right.

If we could pull up

Defendant's Exhibit X.

7

THE COURT

F as in Frank or S as in Sam?

8

MS. FRITZ

X as in x-ray.

9

THE COURT

I can't get it right.

10

BY MS. FRITZ:

11

Q.

12

know when you have had a chance to review it.

And if you could take a look at that, Mr. Hessler.

13

Let me
..S

(Pause)

14

A.

15

the binders.

Can this be enlarged?

Or is it in the binders?.

16

(Pause)

17

It was enlarged and. it shrank.

18

236

Hessler - cross

doing that.

19

Is. it in these binders?

It is in

I'm not sure who is

May I look?

May I look at it here?

20

Q.

Yes.

21

A.

Thank you.

22

(Pause)

23

OK.

I see it.

24

Q.

25

being had between ICBC and Blacksands regarding payment with

All right.

Does this relate to the discussions that were

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

066a

Case l:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 134 of 228
H97dbla5

237

Hessler - cross

1

respect to the judgment?

2

A.

3

Blacksands' promise to pay the judgment on September 6th and

4

then the parties' attempt to agree on the amount that would be

5

due in order to satisfy the judgment, yes.

6

Q.

7

conferences in front of the Judge during this period —

This refers to exactly what I just said.

Does this also reflect the fact that there were a couple of

8
9

MR. LANDSMAN-ROOS:
Q.

Objection.

— with respect to that issue of payment on the judgment?

10

THE COURT:

11

MR. LANDSMAN-ROOS:

12

It was

What is the objection?
First of all, the document is not

in evidence.

13

MS. FRITZ:

I'm not introducing it.

14

THE COURT:

Can I have the question read back, please.

15

(Record read)

16

THE COURT:

The objection is sustained.

You are

17

asking for the content of the document.

18

BY MS. FRITZ:

19

Q.

20

conferences with the Court regarding payment of the judgment?

21

A.

Yes.

22

Q.

And did you in this — in a letter to the Court update the

23

Court regarding what was going on with respect to those

24

settlement discussions?

25

A.

During this period of time, were there also a couple of

Yes.

That's what this letter is.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

067a

Case l:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 135 of 228
H97dbla5

Hessler - cross

1

Q.

2

on behalf of ICBC, to not continue to seek enforcement of the

3

discovery order while these discussions were continuing?

Yep.

And during this period of time, did you also agree,

4

MR. LANDSMAN-ROOS:

5

THE COURT:

6

Q.

Objection.

Sustained.

Was there — if you could go to page 2.

7

Did you agree during this period of time, while

8

discussions were continuing, that you were not seeking to

9

enforce the Court's order?

10

MR. LANDSMAN-ROOS:

11

THE COURT:

12

Q.

Objection.

Sustained.

And did you advise the Court —

13

THE COURT:

You are asking for the content of the

15

MS. FRITZ:

No.

16

THE COURT:

Yes, you are.

14

17

document.

Q.

I'm asking whether —

Mr. Hessler

18

THE COURT:

You told your colleague to put up page 2

19

and in substance asked him what's on page 2.

20

Q.

21

you had agreed not by letter to the Court, did you agree with

22

Mr. Harris that you were not pressing enforcement of that

23

August order while the parties were trying to resolve it?

The question is do you recall whether during that period

24

MR. LANDSMAN-ROOS:

25

THE COURT:

Objection.

Ground?

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

068a

238

Case l:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 136 of 228
H97dbla5

239

Hessler - cross

1

MR. LANDSMAN-ROOS:

2

THE COURT:

401, 403.

Sustained.

3

Q.

4

had refrained from pursuing enforcement of the order?

Did you also advise the Court during this period that ICBC

5

MR. LANDSMAN-ROOS:

6

THE COURT:

Sustained.

7

MS. FRITZ:

I offer into evidence Defendant's X.

8

MR. LANDSMAN-ROOS:

9

THE COURT:

10

Objection.

Objection.

Sidebar.

(Continued on next page)

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

069a

Case 1:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 137 of 228
H97dbla5

Hessler

1

(At the sidebar)

2

MS. FRITZ:

240

cross

Count One of the petition asserts that the

3

failure to produce during the period August 22nd through

4

September 27th constitutes a willful deliberate violation of

5

the Court's order.

6

Mr. Harris and Mr. Hessler had discussed something that, one,

7

that might reasonably have been interpreted by the company as

8

believing that this was an acceptable delay in production, that

9

they were not — they used the words "refrained."

10

I'm trying to get out the fact that

MR. LANDSMAN-ROOS:

I think the same relevancy

11

objection previously that we discussed applies and, also, there

12

is a hearsay issue with it.

13

THE COURT:

Well, certainly there is a problem from

14

the period September 6th to whenever there is any such

15

agreement, if there was such an agreement.

16

problem.

17

MS. FRITZ:

I would

18

THE COURT:

It's all or any part.

That's the first

And even if there

19

were such an agreement, it is simply not a defense to Count

20

One.

21
22

MS. FRITZ:

I think it would be because it has to be a

willful violation of a known legal duty.

23

THE COURT:

Right.

Known legal duty created by the

24

August 22 order to produce on or before September 6th, and from

25

September 6th to whatever the date of any hypothetical

APPENDIX H

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
070a

r*

Case 1:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 138 of 228
H97dbla5
1

agreement there is a willful disagreement — a willful failure.

2

MS. FRITZ:

They might have misunderstood.

They might

3

have been wrong that the parties themselves could agree that

4

this was — that this production —

5

THE COURT:

When did this putative agreement happen?

6

MS. FRITZ:

It started right — this is an update on

7

241

Hessler - cross

events that had been occurring.

8

THE COURT

When?

9

MS. FRITZ

During — I think I have September 7th on.

10

THE COURT

What is the evidence of that?

11

MS. FRITZ

It is in my binder.

12

Do you want me to go

through it?

13

THE COURT:

Yep.

14

MS. FRITZ:

OK.

15

(Pause)

16

MS. FRITZ:

OK.

It references — I don't know if your

17

Honor remembers, but this all came out in the

18

September 15th conference in front of your Honor that turned

19

into almost a settlement conference.

20

conferences that were held over that period.

21

THE COURT:

There were two different

There were two conferences and I'm not

22

sure I remember it all in detail, but my general recollection

23

is that Harris was putting forward a position as to what the

24

amount of interest was and Hessler was putting forth a

25

different position on the amount of interest.

And I sent after

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

071a

Case l:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 139 of 228
H97dbla5
Hessler - cross
1

the first conference, at the end of the first conference, I

2

sent them away to see if they could agree.

3

got this letter, Defendant's X.

4

may have been the day after this, perhaps not, but that's my

5

general recollection, and they haven't agreed.

6

242

And then I think I

I think the second conference

And I'm not aware of any evidence that anybody said

7

they had agreed on anything in the interim.

8

any evidence, other than what you are now showing me, X, where

9

Hessler said something about refraining from doing something

10

I'm not aware of

earlier than the date of this letter.

11

MS. FRITZ:

Your Honor, whatever the time period is

12

that's covered by this, what I want in evidence is the fact

13

that during this period, where the government wants to convict

14

him of a crime, there were these events going on that could

15

have caused Blacksands' lack of production to not necessarily

16

be a willful violation of a known legal duty,

17

the extent that there were days —you know, that there is a

18

day or a week where it should have been done, that's different

19

and the government will argue that, but this becomes relevant

20

to the time period that is their first charge.

21

THE COURT:

22

MR. LANDSMAN-ROOS:

Obviously, to

What about it, Mr. Landsman-Roos?
It is after September 6th.

I

23

don't see the relevance.

24

conversations prior to September 6, they are being offered for

25

their truthfulness and it would be hearsay.

APPENDIX H

And if it is in reference to

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
072a

Case 1:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 140 of 228
H97dbla5
Hessler - cross
1

MS. FRITZ:

243

It's not being offered for truth.

2

Honestly, it's being offered for the fact that this is the

3

information that was being conveyed throughout the case to

4

determine whether Mr. Brennerman's conduct was willful.

5

THE COURT:

Well, look

6

MS. FRITZ

Can I say one more thing?

7

THE COURT:

Yeah.

8

MS. FRITZ

It seems to me that there is something

9

Sure.

very unfair about trying to convict a guy if there is a

10

standdown on this basis.

11

said, look, we're going to stand down and see if we can settle

12

this, then the effort to convict him during that period, I

13

should at least be able to argue that that is not a willful

14

violation.

15

THE COURT:

If these two lawyers sat around and

■ X

Is there anything in the document,

16

Mr. Landsman-Roos, to which you object on grounds other than

17

relevance?

18
19

MR. LANDSMAN-ROOS:

Aside from a hearsay objection,

no.

20

THE COURT:

21

MR. LANDSMAN-ROOS:

What is the hearsay?
Just the extent to which if it is

22

being offered in terms of what the defendant knew — and, by

23

the way, there has been no proffer of that type of evidence —

24

or that this was ever conveyed to him, that's one thing.

25

it's being offered for the truth of what's set forth in the

APPENDIX H

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
073a

Here,

Case 1:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 141 of 228
H97dbla5
Hessler - cross
1

244

letter, meaning there were these conversations on this date.

2

MS. FRITZ:

I would argue it is being offered for the

3

fact that this communication was made to the Court in a

4

document that was filed with the Court.

5

back to the computer, you know, certainly Mr. Brennerman

6

received the pleadings.

7

THE COURT:

And, honestly, if I go

Look, this witness says in the letter:

8

write on behalf of ICBC," blah, blah, blah.

9

complains that the documents were to have been produced

"I

In paragraph 3, he

10

earlier.

11

quote, In reliance on Blacksands' representation to the Court

12

that it will promptly pay the judgment, we have refrained, for

13

the time being, from seeking relief from the Court."

14

They hadn't produced anything.

And then he says,

Now, the representation to the Court that they would

15

pay the judgment occurred when?

16

have been a written communication.

17

And by what means?

It had to

MS. FRITZ:

September 6th is what starts it, when

19

THE COURT:

I didn't ask that question.

20

MS. FRITZ:

OK.

21

THE COURT:

There is a letter on the date of this,

22

September 6th, from Harris?

23

MS. FRITZ:

18

24

f'

Mr.

Yes.

Mr. Harris sends the Court a letter.

Saying a judgment — that they will

pay the judgment.

25

THE COURT:

APPENDIX H

Do you disagree with that?

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
074a

£•

Case l:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 142 of 228
H97dbla5
1

MR. LANDSMAN-ROOS:

I don't know, your Honor.

I am

2

fairly confident it was communicated to the Court on

3

September 15th in a conference, but I don't know about the

4

letter, though.

5

THE COURT:

You had better show me the letter..

6

MS. FRITZ:

He just described it on September 6th,

7

when the production was due, instead — do you want me to go

8

get it?

9
10

245

Hessler - cross

THE COURT:

I would like to see the letter, yeah.

Sorry to bother you.

11

(Pause)

12

MS. FRITZ:

(Handing).

13

THE COURT:

Thank you.

14

MR. LANDSMAN-ROOS:

15

THE COURT:

Thank you.

All right.

I am being shown a copy of

16

Defendant's Exhibit DN, for identification, a letter dated

17

September 6, in which Mr. Harris says, "Blacksands agrees to

18

pay the amount due under the judgment pending appeal."

19

then indicates a desire to avoid a dispute over the amount of

20

the interest.

And

21

Thank you for getting the letter.

22

Now, Mr. Hessler's letter of September 21 says, "In

23

reliance on Blacksands' representation" — obviously

24

Defendant's Exhibit DN

25

being, from seeking relief from the Court."

- "we have refrained, for the time

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

075a

it

Case l:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 143 of 228
H97dbla5
Hessler - cross
1

It seems reasonably clear to me that the "we" who have

2

refrained were the only people who had the power not to

3

refrain, which was Linklaters and ICBC, a unilateral act on

4

their part.

5

MS. FRITZ:

Mm-hmm.

They may have been wrong.

They

6

may well have been wrong, but that doesn't necessarily change

7

the fact that it would impact someone —

8
9

THE COURT:

How do you get over the question of the

period from September 6th to September 21st, during which I

10

have heard no evidence and no offer of proof that

11

Mr. Brennerman had any idea that Hessler and his client, who

12

are not seeking further relief in reliance on the promise to

13

pay, or that there was any agreement not to seek relief?

14
15

MS. FRITZ:

THE COURT:

How about September 6, 7, 8, 9, 10, right

down to 21?

18

MS. FRITZ:

19

going on at the time.

20

decide

21
22

You are right, your Honor, I may not have

an argument for September 4th, but if I have an argument —

16
17

246

Exactly.

My view is this is what was

Ladies and gentlemen of the jury, you

THE COURT:

What's the this that was going on at the

MS. FRITZ:

He is updating — September 6th is the

time?

23
24

communication

25

It's unlikely that that happened in a vacuum, and so it is more

APPENDIX H

sorry — the communication over to the Court.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
076a

Case l:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 144 of 228
H97dbla5
Hessler - cross
1

likely that there were discussions going on since, honestly,

2

since the Court issued the order, which triggered —

3

THE COURT:

4

MR. LANDSMAN-ROOS:

247

Well, what do you say, gentlemen?
Unless the defense is representing

5

that there is evidence that upon the receipt of these initial

6

communications, they were conveyed by Latham & Watkins to

7

Mr. Brennerman and told him we don’t need to comply with the

8

Court's order pause of X, Y, Z, I don't understand the

9

relevance of the documents.

10

MS. FRITZ:

And obviously our position is that's

11

exactly what we are not going to be doing is disclosing exactly

12

what the communications were between counsel, but given the

13

fact that this is part of the record that existed at the time,

14

it is arguable, it is an appropriate argument to make.

15

THE COURT:

16

about it some more.

17

MS. FRITZ:

18

Move on to something else.

I will think

Your Honor, the next exhibits I think

they are all about the settlement discussions.

19

THE COURT:

What settlement discussions?

20

MS. FRITZ:

Here.

21

THE COURT:

You mean the quarrel about the interest?

22

MS. FRITZ:

No.

They are all about the fact that

23

every day in every way these gentlemen are talking about the

24

settlement.

25

There is another component to this, Judge, and that is

APPENDIX H

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
077a

"■ti

Case l:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 145 of 228
H97dbla5

248

Hessler - cross

*

1

as of the next order that the jury is about to hear, your

2

Honor

3

THE COURT:

You mean, the September 27th order?

4

MS. FRITZ:

Correct.

That order specifically says

5

produce documents unless you settle by a particular date.

6

settlement conversations that were going on were very real, and

7

so what I'm trying to show is that there are genuine efforts to

8

seek to resolve this

9

THE COURT:

The

What it all sounds like to me at the

10

moment is that maybe you have an argument as to the period

11

September 21st to September 27th that would not be probative as

12

to the period September 6th to September 21, and all of it is

13

irrelevant to Count Two.

14

MS. FRITZ:

No, it becomes all the more relevant to

15

Count Two when the,Court specifically in the order says either

16

produce or settle.

17

THE COURT:

And then he did neither.

18

MS. FRITZ:

Exactly.

19

which he was operating.

20
21

But this is the .framework in

And so, your Honor, he is being accused of willful
defiance of a Court order.

22

THE COURT:

Look

23

MS. FRITZ:

If this individual is making every effort

24

he can — and your Honor would say he's not, but if he is

25

continuously responding — and your Honor had no way of knowing
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

078a

Case l:17-cr-00155-LAK Document 100 Filed 09/22/17 Page 146 of 228
H97dbla5
Hessler - cross

249

1

this at the time.

2

in relation to the Court orders, that's something that the jury

3

should know to determine whether this is a willful defiance as

4

opposed to — it is a very different story if he just say

5

forget about it, and that's the kind of thing that this

6

gentleman is trying to suggest:

7

interested.

If he is every single day seeking to respond

Forget about it.

Not

8

(Pause)

9

Your Honor, it's probably not going to work anyway but

10

I will at least give it a try.

11

THE COURT:

Well, I think what I will do is I'll take

12

Defendant's X subject to connection, and if you can't connect

-

13

it to Brennerman and with respect to the full time period, it

-t

14

may well go out.

15
16
• 17

MS. FRITZ:

Your Honor, what if the connection isn't a”

conduit communication?

What if instead Mr. Harris would be ini:

a position to say of course I talked to him about this, but we

18

can't do that without waiving privilege.

19

a box.

That's putting us in

20

THE COURT:

Well, I can exclude it.

21

MS. FRITZ:

I'll take it.

23

THE COURT:

OK.

24

(Continued on next page)

22

I'll take it and take your

offer up.
Thank you.

25

APPENDIX H

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
079a

Case 1:17-cr-00155-LAK Document 102 Filed 09/22/17 Page 178 of 216

509

H9bdbla6
1

First, the orders are short, clear, specific.

They

2

are easy to understand.

3

times with the witnesses.

4

Harris testified that, among other things, the particular

5

orders in question were communicated to the defendant.

6

they were clearly disobeyed.

7

compliance with the Court's order.

8

no compliance with the Court's order.

9

that the ultimate production was insufficient.

We have been through them a number of
The second element, Christopher

Third,

By September 6th, there was no
By October 4th, there was
The jury heard evidence
And there is

10

ample evidence that it was willful and knowing and that

11

includes, among other things, the time period that went by, the

12

fact that the defendant had all these documents in his

13

possession and we went through that at length, and his

14

production indicates that — and his responses to discovery

15

indicate that he understood an obligation and just chose to do

16

something differently.

17

THE COURT:

18

OK.

OK.

The motion is denied.

Now, I have a draft charge which my law clerk

19

will distribute to you and it is short, and we'll start the

20

charge conference at 5 o'clock so that we are in a position to

21

sum up tomorrow morning and get the case fully to the jury.

22

Now, I'm in the process of preparing what will be an

23

addition — you can distribute them — an addition to the

24

charge that isn't in there already.

25

terms, and subject to it being reduced to writing in a form

And in the most general

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

080a

2“

Case l:17-cr-00155-LAK Document 102 Filed 09/22/17 Page 179 of 216
H9bdbla6

510

1

satisfactory to me, it will go something like this — in

2

substance like this.

3

to settlement discussions and it will address the evidence with

4

respect to the purported responses in November — purported

5

responses.

6

It will address the evidence with respect

The substance of what I'll say about the settlement

7

discussion argument will be that they've heard evidence about

8

what one side characterizes as settlement discussions and the

9

other — at least one witness on the other side has something

10

somewhat different.

11

settlement discussions, even if there were any, do not suspend

12

or abrogate an individual's obligation to comply promptly with

13

court orders unless the Court suspends or alters the order.

14

You have heard evidence, I will say to them, about

But in any case, the existence of

15

these purported responses, dated November 4th and whatever the r

16

other November date is.

17

crime of contempt is complete as of the first day on which a

18

defendant was obliged to comply with a court order that

19

otherwise meets the requirements for criminal contempt; in

20

other words, all of the elements are satisfied.

21

subsequent compliance or attempted compliance can be relevant

22

to the question of whether the failure to comply earlier was

23

willful.

I propose to instruct them that the .

Evidence of a

24

In considering whether the purported responses — in

25

considering what significance to give the purported responses

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX H

081a

Case l:17-cr-00155-LAK Document 102 Filed 09/22/17 Page 207 of 216
H9b6bla7
1

I hear nothing.

2

I am going to ask my law clerk to distribute a very

3

brief proposed addition, which we'll mark as Court Exhibit B,

4

which is what I discussed earlier.

5

MS. FRITZ:

6

May I, your Honor?

7

THE COURT

You want to begin?

8

MS. FRITZ

Unless the government —

9

THE COURT

Has the government had enough time?

Thank you.

10

MR. LANDSMAN-ROOS:

11

THE COURT:

Go ahead, Ms. Fritz.

12

MS. FRITZ:

It is the first one regarding settlement

Yes.

Thank you.

13

discussions that concerns me and it concerns me for following

14

reason, but I don't have the law here to cite for your Honor.

15

It concerns me based on the following hypothetical:

16

parties in this case agreed on August 22nd that the plaintiff

17

was not further seeking the discovery while settlement

18

discussions were going on and if that continued —

If the

19

THE COURT:

I missed the date.

20

MS. FRITZ:

The Court order's compliance on the 22nd

21

538

August 22nd?

and actually gives him two weeks.

22

THE COURT:

Right.

23

MS. FRITZ:

So if as of the date that compliance would

24

have been required, the parties have agreed that ICBC is not

25

pursuing its discovery demands at that point and is instead is

APPENDIX H

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
082a

Case l:17-cr-00155-LAK Document 102 Filed 09/22/17 Page 208 of 216
H9b6bla7

*

539

1

very desirous of and wishes to engage in discussions regarding

2

payment of the judgment and if that circumstance continues for

3

a period of time, I totally understand your Honor saying that

4

as a technical matter that doesn't in any way eliminate the

5

existence the Court orders, but I do believe the law says that

6

the parties are allowed to agree between themselves that

7

discovery demands are not being pursued,

8

going on and that is being communicated, I have told your Honor

9

before I don't think it is fair to say that someone is in

10

If that is what is

contempt if the adversary has stood down at that point.

11

Now, I am happy to go get the law to say that parties

12

are able to agree on things that may be inconsistent with a

13

pending court order without coming back and getting that order

14

revised.

15

the government where there is limits on what could be paid,

16

go to the government and we say, Look, is it okay if we pay the

17

kid's tuition.

18

payment; but if the parties agree, then that may not be a

19

wilful violation of a court order.

For example, we had all kinds of monetary cases with

There is a court order that may restrain

20

That may have been a lousy example.

21

THE COURT:

Look, you know, I will give you a counter

22

example.

23

the discovery period in a civil case and finally after two

24

years of delays says July 1st, and I mean it, and the parties

25

on June 30th start talking and they are very desirous of

APPENDIX H

We

If a court after having innumerable times extended

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
083a

*

Case l:17-cr-00155-LAK Document 102 Filed 09/22/17 Page 209 of 216
H9b6bla7

540

1

settling and they blow right through it, seems to me the judge

2

is entirely within his rights to say, okay, you are going to

3

trial.

4

was my order.

5

I don't care what you agreed between yourselves.

It

You didn't do it at your own risk.

MS. FRITZ:

Is that a willful violation of the Court's

6

order?

7

consensual problem here, which is can parties basically agree

8

to things — I said it a moment -- that is inconsistent with

9

the order.

In other words, I think we're dealing with a very

I believe that they can and I believe that is

10

exactly what happened here.

11

THE COURT:

Obviously they do.

Sometimes it can be a

12

crime.

13

two parties where there was a court order to produce the

14

discovery by September 4th that they are not going to insist on

15

it while they are seeking discovery and there is a pending

16

contempt application and then the talks, break down and the

17

beneficiary of the court order then presses the contempt

18

application, first thing that could happen is going forward

19

they could get a coercive, order forcing compliance.

That's the problem.

If there were an agreement between

.

20

MS. FRITZ:

Absolutely.

21

THE COURT:

The place where the agreement pinches them

22

is that the extent civil contempt is a compensatory remedy as

23

well as coercive seems to me they would be blocked from getting

24

damages caused by the delay in compliance during the period in

25

which there would be a delay in compliance.

APPENDIX H

It seems to me

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
084a

Case l:17-cr-00155-LAK Document 102 Filed 09/22/17 Page 210 of 216
H9b6bla7
1

541

also that that example doesn't answer your point.

2

MS. FRITZ:

I think there is a couple of issues.

3

Honestly, if on a particular day there is an agreement that

4

discovery is not being demanded and if on that day — you can

5

argue the next day he violated the order but at that point is

6

there a willful violation of a court order, I do not believe

7

so.

8

issue, but the parties then went onto exchange settlement

9

agreements that also would have addressed settlement of any

Not only here did the parties deal with precisely that

10

contempt sanctions.

11

THE COURT:

Civil.

12

MS. FRITZ:

Yes.

So the parties were in this case

13

treating the Court's orders as if they were suspectable of

14

alteration by the parties in terms of amount, in terms of

15

whether the order to — the demand for production applies today

16

or tomorrow or the next day.

17

had the ability to impact the Court order.

18

correct or incorrect, I don't know.

19

goes a step too far to basically say I would argue it suggests

20

that the parties cannot do that and as a matter of law I don't

21

think that is correct nor do I think it is appropriate where

22

the pivotal issue is willfulness and whether an individual in

23

Mr. Brennerman's position would have understood that if Hessler

24

says okay now we're going to settle, let's go meet in London,

25

let's go do all these things to try to resolve this because

APPENDIX H

They were treating it as if the,y
Whether they were

This instruction to me

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
085a

542

Case l:17-cr-00155-LAK Document 102 Filed 09/22/17 Page 211 of 216
H9b6bla7
'1%.

1

honestly ICBC just wanted its money, if all that is going on,

2

would he know that no matter with a Paul Hessler says, he is

3

engaging in a violation of the Court's order?

4

THE COURT:

5

MR. LANDSMAN-ROOS:

I will hear from the government.
Well, your Honor, first of all,

6

the vast majority of this is not even in evidence.

7

arguing from a hypothetical.

8

is appropriate for at least two reasons.

9

largely, and this was argued by my colleague this morning and

So we're

Our view is that the instruction
First, is that

10

it is in our letter briefing, in many ways this argument

11

amounts to a collateral attack on the underlying order,

12

if you credit defense counsel's argument that this somehow^-goes

13

to willfulness, the law is pretty clear that willfulness or.

14

good-faith defense is limited to the circumstances where an

15

individual tries to comply but fails.

16

Even

So the example here would be had Mr..Brennerman -

.

17

gathered up a.lot of the bank records in his apartment and a

18

lot of things, on his computer and missed some and that was held

19

to have violated the Court order, that would be a plausible

20

good-faith defense.

21

given the wrong view of the law is not a valid good-faith

22

defense.

23

It is not a defense to willfulness if he thought in the civil

24

context — even if this is true and there is evidence that he

25

thought in the civil context their settlement discussions could

APPENDIX H

This I didn't understand the law or I was

So the Court's instruction is totally appropriate.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300 .
086a

;

Case l:17-cr-00155-LAK Document 102 Filed 09/22/17 Page 212 of 216
H9b6bla7

543

1

put things on hold.

2

THE COURT:

One more minute, Ms. Fritz.

3

MS. FRITZ:

Now I am going to the clearest example I

4

can think of which is Mr. Hessler indicated that forbearance

5

concept in the documents that are in evidence.

6

witness stand and he said, We have no interest in pursuing that

7

issue if we were going to settle.

8

that information is communicated by Mr. Harris to

9

Mr. Brennerman saying, okay, he has agreed to standdown while

10

we try to settle this thing, it goes to knowledge of whether

11

there is an extant duty.

12

intent.

He sat on the

That is in evidence.

It goes to willfulness.

If

It goes to

Even if he is wrong and I am not sure he is wrong.

13

THE COURT:

14

MR. LANDSMAN-ROOS:

Last one minute, government.
The only thing I would add is the

15

citation Remini decision from the Second Circuit that my

16

colleague put on the record this morning defines the parameters

17

of a good-faith defense, discusses in that context a mistake of

18

law defense in terms of what advice was given by counsel,

19

is not exactly advice of counsel defense here.

20

principle is similar.

21

told him what was going on in settlement discussions, that is

22

not a basis for a good-faith defense.

23

THE COURT:

We think the

To the extent Mr. Brennerman's lawyers

My present disposition is to overrule Ms.

24

Fritz' objection.

25

and before summations somebody remember to ask me whether I

APPENDIX H

It

I will think about it some more overnight

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
087a

Case l:17-cr-00155-LAK Document 102 Filed 09/22/17 Page 213 of 216
H9b6bla7

544

■%-

1

changed my mind.

2

MS. FRITZ:

Obviously, your Honor, particularly given

3

the nature of my personality, I will try to find some case law

4

also.

5

THE COURT:

6

There is nothing else on Exhibit B, right?

7

MS. FRITZ:

That's correct.

8

THE COURT:

How long do you expect to be on closings?

9

MR. LANDSMAN-ROOS:

10

That's not a bad idea.

We're still refining but my hunch

is less than a half hour.

11

THE COURT:

Ms. Fritz?

12

MS. FRITZ

I shall strive for the same.

13

THE COURT

Look, the last thing I want here is

14

summations interrupted by objections.

15

penultimate thing I want.

I would say that is the

The last thing I want is summations
■i

16

interrupted by objections that require me to instruct the jury

17

either in the middle or later with respect to what counsel has

18

just said.

19

and you all know the in limine rulings and you all know that my

20

view quite clearly is that summations are based on the evidence

21

of record not on anything else.

22

that.

By this time you all know what I am going to charge

It is in nobody's interest otherwise.

23

Thank you.

24

MR. LANDSMAN-ROOS:

25

I trust you will comply with

Your Honor, one other issue.

I

mentioned there would be the potential instruction on documents
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDDC H

088a

-V

APPENDIX I
Exhibit and submission in the United States
District Court for the Southern District of
N.Y. in United States v. Brennerman, No. 17 Cr. 337
(EFC No. 236, Ex. 3)

APPENDIX I

089a

Case l:17-cr-00337-RJS Document 236 Filed 04/02/20 Page 17 of 20

LAW36p
Portfolio Media.

Oil Exec Accused Of Lying To Banks Is Convicted Of
Contempt
By Jack Newsham

S$300 mnik»n.nnerrn0r1

new char0“

“Y'"0 to*** ICBC and atlaast ml, tender

"If you look at the

for matters related-to«■»«*= -B.

They are not permitted to suggest that my rulings are wrong/ he instructed jurors.

c Group
accused of

‘ SSSrSSSS’AflMfi4 to the evidence and followed ^jjdge's instructions. .

to be - a lot of
Gordon added, saying

Case l:17-cr-00337-RJS Document 236 Filed 04/02/20 Page 18 of 20
Sentencing is set for Dec, 21.

Pretrial motions in that case ate due at the end of next week.
A lawyer for Brennerman and Biacksands declined to comment. The Justice Department doesn’t
comment on lawsuits.
Spa9ZeeTI.nulii«PreSented ^ RObert B' S°bdman a"d Nto>laa T' Landsman-Roos

of the U.S.

Brennerman Is represented by Maranda E. Frta and Brian D. Waller of Thompson Hlne LLP.
Souttmm District*afNewYorta *

“* nUmber 1:17'cr'00155'in “» <«• District Courtrfer the

-Editing by Catherine Sum.
.. ; ..

Alt Content © 2003-2016, PortfcHo Media, Inc. ’

^ APPENDIX* I’

"•••*'

091a •.

APPENDIX J
Transcript of Proceedings and Oral Ruling
United States District Court for the Southern District of N.Y.
United States v. Brennerman, No. 17 Cr. 337
(Trial Tr. 551-554)

APPENDIX J

092a

Case l:17-cr-00337-RJS Document 94 Filed 12/13/17 Page 201 of 263

A,

HBT5bre7
1

(Jury present)

2

THE COURT:

Okay.

Have a seat.

We will now begin the

3

cross-examination of Mr. Madgett by Mr. Waller.

4

CROSS EXAMINATION

5

BY MR. WALLER:

6

Q.

Good afternoon, Mr. Madgett.

7

A.

Good afternoon.

8

Q.

When did you say you started working for ICBC?

9

A.

2009.

10

Q.

And you work for ICBC in London, correct?

11

A.

Correct.

12

Q.

And it is a subsidiary of a Chinese bank?

13

A.

It is a subsidiary and a branch of a Chinese bank.

14

Q.

ICBC London is not FDIC insured; is that correct?

15

A.

You are referring to the U.S. arrangement?

16

Q.

That's correct.

17

A.

No, it would not be because it's an operation in the U.K.

18

Q.

When your credit committee makes a decision, a credit

19

decision whether or not to give a loan or not to give a loan,

20

what sort of documentation does it produce?

21

memo that explains its reasons or.analysis for giving a loan?

22

A.

23

reflects a discussion of the case in credit committee and

24

records the decision of the credit committee.

25

Q.

Does it produce a

The credit committee will have a series of minutes which

Did you ever produce the documents from that credit
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX J

551

Madgett - cross

093a

Case l:17-cr-00337-RJS Document 94 Filed 12/13/17 Page 202 of 263

*

HBT5bre7

1

552

Madgett - cross

committee, the ones you just described, to the government?

2

MR. ROOS:

3

THE COURT:

Objection.
You can answer.

4

A.

5

appropriate to say this:

6

internal process of the bank means that the direct relationship

7

managers who were responsible for that dialogue step away and

8

the defaulted loan is then passed to a different department.

9

So, I'm not fully aware of all aspects of what has happened to

To my knowledge, no.

But I need to state perhaps it's
After the loan was defaulted, the

10

the management of the loan after around April 2014.

11

Q.

12

prosecutors here in this case.

13

A.

14

been the case.

15

Q.

16

correct?

17

A.

18

legal advisors and then our legal advisors have interacted with

19

the U.S. Attorney's office.

20

Q.

21

underwriting file for ICBC were produced to the document and

22

others were not?

23

A.

24

whether or not all or some.

25

knowledge.

And when I say produced to the government, I meant to the
You understood that?

x*-

I understood that and to my knowledge, no, that has not *-

But ICBC did produce.a lot of.documents to the government,

All I can state is that.the documents were provided to our

Would it be. fair to say that some documents that are in the

Some documents will have been passed across.
I'm not in

I don't have that

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX J

094a

I do not know

1

Case l:17-cr-00337-RJS Document 94 Filed 12/13/17 Page 203 of 263
HBT5bre7

553

Madgett - cross

*■

1

Q.

2

as the one we are dealing with in this case?

3

A.

4

the case for making the loan has been summarized, and that is

5

the credit application document which then goes to credit

6

committee for approval or decline.

7

Q.

8

document?

9

A.

I would have been one of the main authors of that document.

10

Q.

Do you know if that document was produced to the

11

government?

12

A.

13

not know if it has gone to the government.

14

Q.

Well, relevance is not really your determination, correct?

15

A.

Correct, correct.

16

Q.

So you don't know if it was produced to the government and

17

it certainly wasn't produced to the defense, correct, by ICBC?

Is there an underwriting file for a loan application such

There would be a credit application document which is where

Do you know if that — well who would have prepared that

I do not and I wouldn't see great relevance in it, but I do

18

THE COURT:

19

THE WITNESS:

20

Well, do you know?
I don't know, but I'm assuming from your

question that it wasn't.

21

THE COURT:

22

THE WITNESS:

23

THE COURT:

24

Yes.

a question.

25

Well, don't assume.
Okay, sorry.

My apologies.

The jury knows not to assume anything from

So, you just answer as to what you know.

THE WITNESS:

All right.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX J

095a

1

Case l:17-cr-00337-RJS Document 94 Filed 12/13/17 Page 204 of 263
HBT5bre7

554

Madgett - cross

It-

1

BY MR. WALLER:

2

Q.

Was there an answer?

3

A.

Could you repeat the question, please?

4

Q.

Yes.

5
6

Do you know if that document that we were talking
about was ever produced?

7

THE COURT:

8

THE WITNESS:

9

THE COURT:

He answered.

He said I don't know.

I don't know.
And then he started assuming things and

10

that's when I jumped in.

11

BY MR. WALLER:

12

Q.

So the answer is you don't know?

13

A.

I don't know.

14

Q.

Now, you first met Mr. Brennerman in 2011, correct?

15

A.

Yes.

16

Q.

Did you meet him in person for a meeting?

17

A.

Yes.

18

Q.

Jumeirah Carlton Tower Hotel, does that sound right?

19

A.

On one occasion I met him in a hotel, yes.

20

Q.

At that point when you met him I think you testified that

21

there were no firm deals that he was bringing to you at that

22

point?

23

just making an introduction?

24

A.

When the initial interaction between us started, yes.

25

Q.

And, do you recall when the first deal was that he brought

There were no deals that he was bringing to you, he was

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

APPENDIX J

096a

